<html>
<title> - THE ROLE OF NEPA IN THE SOUTHERN STATES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                THE ROLE OF NEPA IN THE SOUTHERN STATES

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

             Saturday, July 23, 2005, in Nacogdoches, Texas

                               __________

                           Serial No. 109-26

                               __________

           Printed for the use of the Committee on Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
21-023                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                         COMMITTEE ON RESOURCES

                 RICHARD W. POMBO, California, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska                    Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Eni F.H. Faleomavaega, American 
Elton Gallegly, California               Samoa
John J. Duncan, Jr., Tennessee       Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Barbara Cubin, Wyoming               Donna M. Christensen, Virgin 
  Vice Chair                             Islands
George P. Radanovich, California     Ron Kind, Wisconsin
Walter B. Jones, Jr., North          Grace F. Napolitano, California
    Carolina                         Tom Udall, New Mexico
Chris Cannon, Utah                   Raul M. Grijalva, Arizona
John E. Peterson, Pennsylvania       Madeleine Z. Bordallo, Guam
Jim Gibbons, Nevada                  Jim Costa, California
Greg Walden, Oregon                  Charlie Melancon, Louisiana
Thomas G. Tancredo, Colorado         Dan Boren, Oklahoma
J.D. Hayworth, Arizona               George Miller, California
Jeff Flake, Arizona                  Edward J. Markey, Massachusetts
Rick Renzi, Arizona                  Peter A. DeFazio, Oregon
Stevan Pearce, New Mexico            Jay Inslee, Washington
Henry Brown, Jr., South Carolina     Mark Udall, Colorado
Thelma Drake, Virginia               Dennis Cardoza, California
Luis G. Fortuno, Puerto Rico         Stephanie Herseth, South Dakota
Cathy McMorris, Washington
Bobby Jindal, Louisiana
Louie Gohmert, Texas
Marilyn N. Musgrave, Colorado
Vacancy

                     Steven J. Ding, Chief of Staff
                      Lisa Pittman, Chief Counsel
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

                      TASK FORCE ON IMPROVING THE
                    NATIONAL ENVIRONMENTAL POLICY ACT

                 CATHY McMORRIS, Washington, Chairwoman
             TOM UDALL, New Mexico, Ranking Democrat Member

Ken Calvert, California              George Miller, California
George P. Radanovich, California     Edward J. Markey, Massachusetts
Chris Cannon, Utah                   Frank Pallone, Jr., New Jersey
Jim Gibbons, Nevada                  Grace F. Napolitano, California
Greg Walden, Oregon                  Jay Inslee, Washington
Rick Renzi, Arizona                  Mark Udall, Colorado
Stevan Pearce, New Mexico            Raul M. Grijalva, Arizona
Henry Brown, Jr., South Carolina     Jim Costa, California
Thelma Drake, Virginia               Nick J. Rahall II, West Virginia, 
Louie Gohmert, Texas                     ex officio
Richard W. Pombo, California, ex 
    officio

                                 ------                                
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on Saturday, July 23, 2005..........................     1

Statement of Members:
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     2
    McMorris, Hon. Cathy, a Representative in Congress from the 
      State of Washington........................................     2

Statement of Witnesses:
    Carrillo, Victor, Chairman, Texas Railroad Commission, 
      Austin, Texas..............................................    14
        Prepared statement of....................................    16
    Davis, W.I., Shelby County Farm Bureau Forestry Chairman, 
      Texas Farm Bureau, Nacogdoches, Texas......................    28
        Prepared statement of....................................    29
    Dean, Stephen E., President/CEO, Texas Forest Products, Inc., 
      Gilmer, Texas..............................................    18
        Prepared statement of....................................    20
    Dructor, Daniel J., Executive Vice President, American 
      Loggers Council, Hemphill, Texas...........................     5
        Prepared statement of....................................     7
    England, Stephen M., Manager of Mined Lands, TXI Operations, 
      LP, Dallas, Texas..........................................    30
        Prepared statement of....................................    31
    Johnston, Debbie, Public Affairs Director, Abitibi-
      Consolidated, Lufkin, Texas................................    10
        Prepared statement of....................................    12
    Nichols, Sandra, Staff Attorney, WildLaw, Montgomery, Alabama    42
        Prepared statement of....................................    44
    Shelton, Larry D., Trustee, Texas Committee on Natural 
      Resources, Austin, Texas...................................    32
        Prepared statement of....................................    34
    Smith, Stephen F., Executive Director, Texas Mining and 
      Reclamation Association, Austin, Texas.....................    23
        Prepared statement of....................................    25


   OVERSIGHT FIELD HEARING ON THE ROLE OF NEPA IN THE SOUTHERN STATES

                              ----------                              


                         Saturday, July 23, 2005

                     U.S. House of Representatives

                            NEPA Task Force

                         Committee on Resources

                           Nacogdoches, Texas

                              ----------                              

    The Task Force met, pursuant to call, at 10 a.m., at the 
Cole Concert Hall, Stephen F. Austin State University, 
Nacogdoches, Texas, Hon. Cathy McMorris presiding.
    Present: Representatives McMorris and Gohmert.
    Miss McMorris. The hearing will come to order. Good 
morning, everyone. I would like to begin by welcoming County 
Judge Sue Kennedy who will sing The National Anthem.
    [National Anthem].
    Miss McMorris. Thank you very much, Judge Kennedy.
    Please remain standing as District Judge Ed Klein leads us 
in the Pledge of Allegiance.
    [Pledge of Allegiance].
    Miss McMorris. Thank you, Judge Klein.
    Now Dr. Rick Scarborough will present today's invocation.
    [Invocation].
    Miss McMorris. Thank you, Dr. Scarborough.
    If everyone would take their seats, I will now recognize 
Scott Beasley, Dean of the Forestry School, for his remarks.
    Mr. Beasley. Good morning. I'm Scott Beasley, Dean of the 
College of Forestry and Agriculture. This morning I'm here on 
behalf of President Guerrero to welcome all of you and to 
welcome the Task Force on Improving the National Environmental 
Policy Act, or NEPA, as we like to call it.
    Dr. Guerrero is out of the country, but he asked me to 
express his regrets to the group for not being here to welcome 
everyone personally. We're honored and fortunate to be one of 
the three locations in the United States to host a hearing on 
this important topic. I think we all realize that our public 
lands are threatened as never before by such things as insects, 
diseases, and fires, invasive species; and we need policies and 
regulations and laws that will promote protection and 
management of our natural resources.
    I want to welcome all of you to this hearing, on behalf of 
President Guerrero, to Stephen F. Austin State University; and 
give a special welcome and thanks to the Task Force Members, 
Representative Cathy McMorris from Washington State and our own 
Representative, Louie Gohmert from Texas.

   STATEMENT OF THE HON. CATHY McMORRIS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Miss McMorris. Thank you.
    We're going to start out just with some opening remarks, 
and I want to start out by thanking my good friend, Congressman 
Louie Gohmert, for inviting the Task Force to East Texas. It is 
great to be here. He was with me when we kicked off the Task 
Force in Spokane, which is my home base. I'm a Representative 
from Eastern Washington State.
    I've been asked by Chairman Richard Pombo of the Resources 
Committee to chair the NEPA Task Force. This is our third of 
six hearings and already we have learned a lot about NEPA and 
the NEPA process and some ways that we can hopefully improve 
that process.
    We all share the same goal of clean air, clean water, and a 
healthy environment. We want to focus NEPA to ensure sound 
environmental decisions, instead of endless analysis and 
litigation. We must protect and enhance our wildlife, 
watersheds, and communities; and put common sense back into 
environmental decisionmaking.
    NEPA shouldn't simply become bureaucracy in action.
    Texas and the other states represented by our witnesses 
provide us unique examples of how NEPA works and how it can be 
improved. The goal of the Task Force is to get out of 
Washington, D.C., to listen firsthand to the people on the 
ground so that we can better understand if NEPA is living up to 
its intent.
    It's no secret that NEPA, as well as other environmental 
laws, have spurred vast amounts of litigation, have stalled 
important economic development projects, and at times have cost 
the taxpayers millions. Nearly every word in the NEPA law has 
been litigated. That doesn't help our economy, and it certainly 
doesn't help our environment.
    The question before the Task Force is ``How can we do 
better for our economy and our environment.''
    Miss McMorris. I would like now to recognize Congressman 
Gohmert for his opening statement.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Gohmert. Well, thank you. Cathy McMorris is a good 
friend. It's been wonderful to get to know you since we've been 
in Congress together and I'm grateful for the leadership that 
you've had.
    We started off--we did have a hearing in Spokane and one in 
Arizona. This is the third hearing. There will be three more 
hearings, but this is one out of six in the entire nation.
    And when I lobbied to have a hearing in this district and 
carved a place within the district, this just seemed to be a 
perfect place. Stephen F. Austin has perhaps the greatest 
forestry school department anywhere in the country. And with 
all the natural resources with which we've been blessed in East 
Texas, what a place to come and learn more about the effects of 
NEPA and environmental policies on our environment.
    And as Chairwoman McMorris has mentioned, we all desire 
clean air, clean water, a good environment. That's something we 
all need and something we all desire ourselves. But what we've 
been hearing are there are some policies that have actually 
been detrimental to the environment. Although the intent is 
good, sometimes the environment has been hurt when common sense 
goes out the window.
    So just as the--(inaudible). I can assure everybody that if 
somebody is going to try to do away with one of our historical 
sites here in East Texas, they've got a fight on their hands 
because a lot of us don't want to see our history go away. It's 
too rich here.
    I would like to thank my district staff, my Washington 
staff; and I would just like to ask that--they've helped get 
this together. If you would all stand so people know who and 
where you are. And if you have some additional information to 
give me, as your Congressman--if you-all would all stand, those 
that are on our staff.
    And there's a young man that picked me up in Houston and 
raced me up here last night, taking his time--Justin Roberts, 
where you are? Is Justin here?
    Voice. He's out back.
    Mr. Gohmert. He's out back. Well, I wanted to give him 
recognition.
    I would also like to thank Stephen F. Austin for their 
great hospitality. I knew when I proposed doing it here at 
Stephen F. Austin we would get hospitality and helpful 
friendliness; and just as I expected, it has really come 
through. So thank you and the City of Nacogdoches, the County 
of Nacogdoches, and all those that participated.
    And when I called and talked with my good friend who's the 
Chairman of the Railroad Commission--for those of you who are 
not from around Texas, the Railroad Commission, they are the 
ones that have such tremendous impact on resources and control 
over our resources in Texas.
    And so I want to especially thank Chairman Victor Carrillo 
for taking the time to come to East Texas. He had some family 
that was coming in; and yet he felt that this was so important 
that he would take his time, come from Austin, and share with 
us his insight.
    So, Chairman Carrillo, thank you so much for coming to be 
here with us and giving your perspective for the entire state.
    And also, there are two of us here physically. There is the 
Resources staff that have been here; and, folks, these guys are 
unbelievable. I just appreciate them so much. They make these 
hearings flow smoothly.
    Everything is being recorded. Everything will be taken 
down. Everything will be transcribed. Also, these witnesses--we 
only give them five minutes for a statement. That's what we do 
in Washington. That's what we do in these hearings. But they 
can make as long a statement as they want. It will be submitted 
with the record. It will be part of the record, and the record 
is what everybody reviews.
    There are nine Democrats on this Task Force, and none of 
those individuals are here today; but I know they care deeply 
about the environment. So you can rest assured they will be 
reviewing the testimony carefully and all the information that 
was derived, both the written and the recorded testimony.
    This gives us a chance to see faces, to analyze the 
information; and we appreciate you-all being here. We 
appreciate you-all's respect. Somebody may say something with 
which you disagree, but everybody--I don't care who it is--that 
will testify deserves to be heard respectfully.
    You can agree or disagree. Like Voltaire says, I may 
disagree with what you say; but I will defend to the death your 
right to say it. So if you would, be respectful, no matter what 
is said.
    Thank you so much. Chairman, thank you for giving your time 
today.
    Miss McMorris. Thank you, Louie.
    Miss McMorris. And I want to take a few minutes to mention 
this is a bipartisan Task Force. We have bipartisan 
participation. We are seeking broad input from everyone that is 
interested in the NEPA process, and NEPA is the process by 
which we look at environmental impacts and make decisions, and 
it was the first of many environmental laws that have been 
passed in this country. We're not--the Clean Air Act, the Clean 
Water Act, the National Historic Preservation Act.
    (Inaudible). NEPA lays out the process by which we look at 
those environmental impacts and decisions. NEPA is also the law 
that encourages and requires public participation, and I think 
that's one of the cornerstones of NEPA.
    In keeping with that practice, even though we have only 
invited nine witnesses here today, we want to hear from 
everyone; and I encourage you to submit your comments to the 
Resources Committee so that we take all comments and 
recommendations into consideration.
    There's a website that has been developed. It's under the 
Resources Committee website, and we encourage any comments you 
might have.
    At this time, I would like to introduce our panel:
    To give us a NEPA success story from the national forests 
in East Texas is Daniel Dructor, Executive Director of the 
American Loggers Council.
    To talk about NEPA, its impact on natural gas prices, and 
what that meant for a local timber mill is Debbie Johnston, 
Public Affairs Director of Abitibi-Consolidated.
    Next is Chairman Victor Carrillo, Chairman of the Railroad 
Commission of Texas, who will tell us how states are able to 
efficiently permit oil and gas operations.
    Also here is Steve Dean, President of Texas Forest 
Products, Incorporated. Mr. Dean will talk to us about the 
impact of government regulations like NEPA on small businesses.
    Steve Smith, Executive Director of the Texas Mining & 
Reclamation Association, will discuss NEPA and its role in 
mining.
    Next will be W.I. Davis, representing the Texas Farm 
Bureau, to talk to us about the different ways private and 
public lands were impacted by the 1998 blow-down.
    Stephen M. England, Manager of Mining Land from TXI 
Geologic & Mine Services, will tell us about NEPA and 
construction.
    Larry Shelton, a Trustee of the Texas Committee on Natural 
Resources, will talk about NEPA's public participation 
requirements.
    And Sandra Nichols, a staff attorney with WildLaw, will 
share her experiences with NEPA and timber projects. Sandra has 
joined us from Montgomery, Alabama.
    Now, it's the policy of the Resources Committee to swear in 
witnesses; so if you-all will stand and raise your right hand.
    [Witnesses sworn.]
    Miss McMorris. Let the record reflect that the witnesses 
answered in the affirmative.
    Before we get started, I want to point out that there are 
lights at the front of the table to control the time. They will 
light up. Each witness has five minutes, and I would encourage 
you to stay as close to five minutes as possible; and I'll try 
to keep it on time, too.
    So when the green light is going, you're free to talk. When 
the light turns yellow, you have one minute; and when it turns 
red, I would ask you to wrap up. Your full testimony will 
appear in the record. Keeping statements to five minutes will 
allow us time for questions.
    Mr. Dructor, you will begin.

   STATEMENT OF DANIEL J. DRUCTOR, EXECUTIVE VICE PRESIDENT, 
                    AMERICAN LOGGERS COUNCIL

    Mr. Dructor. Good morning, Task Force Chairwoman McMorris 
and Congressman Gohmert. My name is Danny Dructor; and I'm here 
today representing the Texas Forestry Association, as well as 
the American Loggers Council.
    The Texas Forestry Association is a non-profit organization 
representing family forest landowners, industrial forestry 
concerns, and professional timber harvesters in the State of 
Texas.
    The American Loggers Council represents over 10,000 timber 
harvesting professionals in 27 states throughout the U.S., 
including Texas, Louisiana, Arkansas, Mississippi, Alabama, and 
most other states all over the country.
    Our offices are located in Sabine County, Texas, near 
Toledo Bend Reservoir. I appreciate the opportunity to testify 
before you on this most important subject.
    What I would like to present to you today is a success 
story, a story of an incident occurring in the national forests 
of Texas in February of 1998 where alternative arrangements 
were made to streamline the NEPA process, resulting in the 
removal and restoration of approximately 103,000 acres of the 
timberland within the national forest lands of East Texas.
    On February 10, 1998, hurricane-force winds slashed across 
East Texas. The storm damaged approximately 103,000 acres of 
national forest across the Sam Houston, Angelina, and Sabine 
National Forests. In one afternoon, nature did more 
clearcutting on the national forests in Texas than the Forest 
Service had performed in the previous decade.
    Because of the high humidity and high temperatures 
associated with our region, there was not time to prepare an 
EIS to analyze the effects of removing the damaged timber 
before blue stain, insect damage, and rot would cause the 
downed timber to deteriorate, losing all of its commercial 
value.
    Ronnie Raum, the Forest Supervisor working for the USDA 
Forest Service on the national forests in Texas at the time, 
went to Washington and asked the Council on Environmental 
Quality for what is known as alternative arrangements to normal 
NEPA requirements.
    The three primary objectives for removing the downed trees 
were: First, to avoid catastrophic fires that can originate in 
the heavy fuel loadings resulting from the storm; second, to 
avoid further damage to Red-cockaded Woodpecker and bald eagle 
habitat; and third, to avoid further habitat loss from bark 
beetle attack.
    The following remarks are a portion of the presentation 
that Ronnie made to the Texas Forestry Association Annual 
Meeting on October 7th, 1998:
    ``Thanks in part to Congressman Jim Turner, the CEQ granted 
only the 38th request for alternative arrangements in 20 years; 
and it was the first time ever that the CEQ allowed timber 
harvesting under alternative arrangements.
    ``Throughout the spring and summer over, 1,000 people from 
all over the country were used to get the material on the 
market and out of the woods. Over 106 MMBF of timber was 
offered up for sale with an estimated economic value of $19 
million in revenues.
    ``In six months' time, trees were removed from the vast 
majority of the extensively and moderately damaged areas, which 
included 89 sales and covered over 29,000 acres. Areas avoided 
included the riparian zones and scenic areas in order to ensure 
the trees could get harvested and avoid the lawsuits and 
litigation that could possibly pressure the CEQ to withdraw the 
alternative arrangements.
    ``Through it all, we have faithfully fulfilled our 
commitments made to the CEQ. All that is left is to develop an 
Environmental Impact Statement that will guide our 
reforestation efforts. Because we did what we said we would do 
and did not play any games with the CEQ approvals, other 
national forests that have similar natural disasters will 
hopefully get the opportunity to do what we did.''
    I would like to show you some photographs--and you have 
copies of them, as well. This is--all three of these--the first 
picture is the devastation immediately following the blow-down 
in 1998. And this is a picture that I took on July 13th of this 
year showing what these areas look like. Again, total 
devastation.
    With proper replanting, we now have longleaf pine trees 
established. And this is a CD down here to give you some 
indication of the height of that tree.
    Miss McMorris. When was it planted?
    Mr. Dructor. I really don't know the date. Given this is a 
longleaf pine, probably--approximately four to five years ago. 
They sit in the grass stage for about four or five years before 
they come up.
    Again, another picture where you can see the longleaf pines 
starting to come up.
    Miss McMorris. We were going to fly over it today, but we 
ran out of time.
    Mr. Dructor. Well, it's really hard to see the regeneration 
from the air. It's pretty dense.
    OK. Events like this are not uncommon in our southeastern 
forests or anywhere in the National Forest System. Naturally 
occurring events such as wildfires, ice storms, insect and 
disease infestations can and do occur in a moment's notice; and 
we need a policy that will allow us to act in a timely and 
efficient manner in order to help protect and restore the 
forest and wildlife habitat once one of these national 
disasters has struck.
    Unfortunately, the events that took place in the national 
forests in Texas between the months of February and August of 
1998 are the exception rather than the rule.
    Because of the series of events that occurred between the 
six-month period, the forest and the wildlife living in its 
natural surroundings were protected and enhanced.
    The National Environmental Policy Act, the 35-year-old law 
that was established to protect our forests, may be the very 
law that obstructionists and liberal courtrooms use to destroy 
them. Lawsuits and litigation appear to be the norm rather than 
the exception; and oftentimes, cases are litigated on technical 
issues rather than environmental issues. Misinterpretation by 
the courts continues to hamstring the process and delay 
projects that are necessary to restore forest health and reduce 
fuel loads.
    Miss McMorris. I need to ask you to wrap it up.
    Mr. Dructor. I would just like to say--we would like to 
offer up to this Committee the need to administratively 
establish an alternative NEPA compliance procedure similar to 
that used by the national forests and grasslands in Texas.
    We have some ideas on how we might standardize the process 
working with CEQ to make it work.
    We also feel that funds should be appropriated to the 
Forest Service for the hiring of contractors to carry out these 
environmental management projects aimed at reducing fuel 
loadings to protect and improve habitat.
    There also should be returns to Ranger Districts of the 
revenues generated from those projects to help continue the 
maintenance of those projects. Thank you.
    Miss McMorris. Thank you very much.
    [The prepared statement of Mr. Dructor follows:]

       Statement of Daniel J. Dructor, Executive Vice President, 
                        American Loggers Council

    Good morning Task Force Chairwoman McMorris, and other members of 
the Task Force, my name is Danny Dructor, I am here today representing 
the Texas Forestry Association as well as the American Loggers Council. 
The Texas Forestry Association is a non-profit organization 
representing stakeholders, including family forest landowners, 
industrial forestry concerns and professional timber harvesters in the 
State of Texas. The American Loggers council represents over 10,000 
timber harvesting professionals in 27 states throughout the US, 
including Texas, Louisiana, Arkansas, Mississippi, Alabama, Georgia, 
Florida, South Carolina, Kentucky and Virginia. Our offices are located 
on beautiful Toledo Bend Reservoir near Hemphill, Sabine County, Texas. 
I appreciate the opportunity to testify before you today and provide 
our comments on the very important issue of streamlining and improving 
the National Environmental Policy Act (NEPA).
    What I want to present to you this morning is a success story. A 
story of an incident occurring in the National Forests of Texas in 
February of 1998 where alternative arrangements were made to streamline 
the NEPA process, resulting in the removal and restoration of 
approximately 103,000 acres of timberland within the National Forest 
lands of East Texas.
    On February 10, 1998, hurricane force winds slashed across East 
Texas. The storm damaged approximately 103,000 acres of National 
Forests across the Sam Houston, Angelina and Sabine National Forests. 
In one afternoon, nature did more clearcutting on the National Forests 
in Texas than the Forest Service had performed in the previous decade.
    Because of the high humidity and high temperatures associated with 
our region, there was not time to prepare an EIS to analyze the effects 
of removing the damaged timber before blue stain, insect damage and rot 
would cause the downed timber to deteriorate, losing all commercial 
value. Ronnie Raum, the Forest Supervisor working for the USDA Forest 
Service on the National Forests in Texas at the time, went to 
Washington to ask the Council on Environmental Quality for what is 
known as ``Alternative Arrangements'' to normal NEPA requirements. The 
three primary objectives for removing the downed trees were:
    <bullet>  Avoid catastrophic fires that can originate in the heavy 
fuel loadings resulting from the storm
    <bullet>  Avoid further damage to Red Cockaded Woodpecker and Bald 
Eagle habitat
    <bullet>  Avoid further habitat loss from bark beetle attack.
    The following remarks are a portion of a presentation that Ronnie 
made to the Texas Forestry Association Annual Meeting on October 7, 
1998:
          ``Thanks in part to Congressman Jim Turner, the CEQ granted 
        only the 38th request for alternative arrangements in 20 years 
        and it was the first time ever that CEQ allowed timber 
        harvesting under alternative arrangements. Throughout the 
        Spring and Summer, over 1,000 people from all over the country 
        were used to get the material on the market and out of the 
        woods. Over 106 MMBF of timber was offered up for sale with an 
        estimated economic value of over $19 million in revenues. In 
        six months time, trees were removed from the vast majority of 
        the extensively and moderately damaged areas which included 89 
        sales and covered over 29,000 acres. Areas avoided included the 
        riparian zones and scenic areas in order to ensure the trees 
        could get harvested and avoid the lawsuits and litigation that 
        could possibly pressure the CEQ to withdraw the alternative 
        arrangements.
          Through it all, we have faithfully fulfilled our commitments 
        made to the CEQ. All that is left is to develop an 
        environmental impact statement that will guide our 
        reforestation efforts. Because we did what we said we would do 
        and did not play any games with the CEQ approvals, other 
        National Forests that have similar natural disasters will 
        hopefully get the opportunity to do what we did.''
    I would like to show you photographs (see attachments) that depict 
the state of the forest immediately following this catastrophic event 
in 1998, and the results of prompt action and proper reforestation 
efforts that lead to the restoration of these same forest as they are 
now seen today just 7 years later, a short timeframe in the life of a 
natural resource whose life cycle can well exceed 100 years.
    The incident I have just discussed with you was the result of 
landowners, forest managers, loggers and public servants working 
together for the good of their communities, their economies, and most 
importantly, the health of their forests. Without immediate 
intervention, fuel loads on the National Forests in Texas across 
103,000 acres would have been dramatically increased, leading to the 
possibility of catastrophic wildfires which could have destroyed 
forests, wildlife habitat, private property, and most importantly, 
lives. Watersheds were restored to ensure that soil erosion and 
siltation into creeks and reservoirs was minimized. The Southern Pine 
Beetle, which preys on mature, weakened and diseased pine trees, did 
not become a problem in the National Forest that summer because the 
material had been removed from the forest, averting a possible epidemic 
of Southern Pine Beetle infestations. Sales prices for the timber sales 
remained strong throughout the summer, bringing over $40.00 per ton 
($320.00 per MBF). The citizens of East Texas turned a potentially 
environmentally and economically devastating event into an event in 
which there were no real significant impacts either to forest health or 
the local economy. What made this is a success was the ability to move 
fast, expedite the process, and rapidly return our National Forest to 
being productive, healthy forests as well as enhancing wildlife habitat 
along the way.
    Events like this are not uncommon in our Southeastern Forests or 
anywhere in our National Forest System. Naturally occurring events such 
as wildfires, ice storms, insect and disease infestations can and do 
occur in a moments notice, and we need a policy that will allow us to 
act in a timely and efficient manner in order to help protect and 
restore the forest and wildlife habitat once one of these natural 
disasters has struck.
    Unfortunately, the events that took place on the National Forests 
in Texas between the months of February and August of 1998 are the 
exception rather than the rule. Because of the series of events that 
occurred during the six month period, the forest and the wildlife 
living in its natural surroundings were protected and enhanced. The 
National Environmental Policy Act, a thirty five year old law that was 
established to protect our forests, may be the very law that 
obstructionists and liberal courtrooms use to destroy them. Lawsuits 
and litigation appear to be the norm rather than the exception, and 
oftentimes cases are litigated on technical issues rather than 
environmental issues. Misinterpretation by the courts continues to 
hamstring the process and delay projects that are necessary to restore 
forest health and reduce fuel loads.
    In an article recently published in the American Forest Resources 
Council newsletter, it was reported that in May, Representative Greg 
Walden, Chairman of the Subcommittee of Forests and Forest Health, 
wrote the Forest Service requesting information about the timber sale 
program and any resulting appeals and litigation. The response from 
Deputy Chief for National Forest System, Joel Holtrop indicated that 
nearly 1.6 billion board feet are tied up in litigation as of May 31. 
After reviewing the report Walden commented ``the timber sales program 
is in worse shape than even these disturbing numbers would indicate. 
Not counted in this figure are the proposed sales currently tied up in 
the administrative appeals process, nor those held up while waiting for 
a resolution to litigation facing other sales. As we learned during our 
work on the Healthy Forest Restoration act, the Forest Service spends 
an enormous amount of time and money fighting a very organized and 
well-funded appeals effort. The result is weakened forest health, 
weakened rural economies and a great deal of taxpayer money going into 
the appeals and litigation rather than into good stewardship of our 
forests.''
    The Forest Service's current timber sale program offers 
approximately two billion board feet per year. Annual mortality on 
national forest system land could be as high as 10 billion board feet 
per year while the total growth is at least 20 billion board feet. The 
table in Exhibit I shows timber under litigation by Region. (MMBF = 
million board feet)
    We would like to offer up to this committee the need to 
administratively establish an alternative NEPA compliance procedure 
similar to that used by the National Forests and Grasslands in Texas. 
We have some ideas on how we might standardize the process working with 
CEQ to make it work.
    We also feel that funds should be appropriated to the Forest 
Service for the hiring of contractors to carry out environmental 
management projects aimed at reducing fuel loadings, protecting and 
improving habitat and reducing or protecting against insect and disease 
infestations. There should also be provided for an automatic return of 
revenue (one-half of net product revenue proceeds) to Ranger Districts 
for the maintenance of accomplished project benefits.
    There is also the need to provide training for forest service 
personnel in the use of this project capability. Oftentimes the 
administration gives the agencies the tools to work with, but forgets 
to explain how to use them. We are fortunate enough to be sitting in an 
auditorium that is part of Stephen F. Austin State University, who also 
happens to be my alma mater and who graduates, in my opinion, some of 
the finest forest managers found in the country. These young men and 
women are the future of our forests, and I dare say that I will put 
their expertise and education on proper forest management up against 
any judge in any courtroom across the US. They are the ``doctors'' of 
the forest, and do not need the opinion of a judicial appointee to 
write a prescription.
    While NEPA was a godsend in its early beginnings, its metamorphosis 
into a battle ground between special interest groups and multiple-use, 
sustained yield advocates has turned it into a counterproductive piece 
of legislation. We ask that you carefully consider adopting amendments 
to NEPA that will once again make it the premier environmental 
management tool that its creators had envisioned.
    Again, thank you on behalf of the Texas Forestry Association and 
the American Loggers Council for this opportunity to testify before 
this Task Force. I would be happy to attempt to answer any questions 
you may have.

[GRAPHIC] [TIFF OMITTED] T2849.001

                                 ______
                                 
    Miss McMorris. Ms. Johnston?

STATEMENT OF DEBBIE JOHNSTON, PUBLIC AFFAIRS DIRECTOR, ABITIBI-
                          CONSOLIDATED

    Ms. Johnston. Thank you, Chairwoman. My name is Debbie 
Johnston. I'm a Public Affairs Director for Abitibi-
Consolidated, with responsibilities for most of our 
manufacturing and paper recycling operations in the southern 
half of the U.S.
    Abitibi-Consolidated is a global leader in the production 
of newsprint and uncoated groundwood papers, as well as a major 
producer of wood products with operations located in the U.S., 
Canada, the U.K., South Korea, China, and Thailand.
    The company's Lufkin facility has deep-rooted ties to the 
local community. The mill began operations in 1940, after the 
discovery of a manufacturing process allowed the removal of 
pitch and resin from southern pine trees, and financial 
investors agreed to bankroll the construction of a newsprint 
mill in deep East Texas to prove that the process worked.
    Out of this risky venture, the manufacture of newsprint in 
the southern U.S. Began; and the newspaper industry was freed 
from its dependency on paper manufactured in the northeastern 
region of the U.S. And in Canada.
    Southland Paper Mills were the original owners of the mill; 
however, it was later purchased by St. Regis and then by 
Champion International.
    Over the years, dramatic changes in the newspaper industry, 
as well as a decline in the demand for newsprint and lack of 
continued investment in the Lufkin mill by Champion led the 
company to divest itself of its two Texas mills and paper 
recycling operations. In 1998, after nearly a year of searching 
for a buyer for the Texas assets, they were purchased by 
Donohue, Incorporated, headquartered in Montreal, Quebec.
    Donohue executives quickly recognized the value of owning a 
mill in the south to manufacture a new grade of paper that 
could provide printers and publishers in the south with paper 
for sales catalogs, advertising flyers, and coupons.
    The company purchased a large paper machine that had been 
idled and packaged for shipment to New Zealand, and was 
currently sitting on a site in British Columbia. The machine 
took approximately one and a half years to assemble on the 
Lufkin mill site, along with other upgrades to the facility 
made at the same time to improve environmental performance and 
enhance paper quality.
    However, in 2000, midway through this extensive 
modernization project, Donohue was acquired by another Canadian 
newsprint manufacturer, Abitibi-Consolidated. Abitibi-
Consolidated completed the project at a cost of over $350 
million, the largest single investment ever made in Angelina 
County.
    In August of 2001, the newspaper machine began--excuse me. 
I got the wrong page--began production, notably one of the 
largest paper machines in North America to produce this grade 
of paper.
    The mill modernization project involved not only the 
addition of the new paper machine, but also included extensive 
changes to the pulp bleaching area that resulted in significant 
improvement to the environmental performance of the new mill.
    The mill was converted to an oxygen bleaching system, 
removing the use of elemental chlorine in the process; and the 
mill's onsite waste treatment facility was upgraded and 
expanded, making it a state-of-the-art facility in the 
industry.
    Although the demand for supercalendered paper remained 
moderately strong during the 2001-2002 period, demand for 
newsprint began to sag dramatically; and in December of 2002, 
the company announced the idling of its newsprint mill in 
Sheldon, Texas. New emphasis was placed on the Lufkin mill with 
a great deal of focus on reducing manufacturing costs as the 
mill began to feel the pressures of an international 
marketplace.
    It was also during this time that mounting energy costs 
began to eat away at what had once been a promising investment 
amongst the company's assets. The mill's energy infrastructure 
was put in place when natural gas was cheap, plentiful, and 
preferred as one of the cleanest burning fuels available. The 
mill self-generated approximately 50 percent of its energy 
needs and purchased the remainder from a local provider. During 
this time period, monthly energy bills began to reach the $3 
million mark and continued to climb.
    By 2003, for every $1 increase in the price of natural gas, 
the mill's annual energy costs increased by $11 million.
    As natural gas prices rose and sustained themselves at the 
higher levels, the mill could not overcome the bleeding caused 
by these costs. In an effort to stop the bleeding at the 
facility, the company announced in December 2003 it would 
indefinitely idle the Lufkin mill.
    For the mill, uncontrollable energy costs also came at a 
time when demand for supercalendered paper grades and newsprint 
were not strong enough to command pricing that would cover 
manufacturing costs. Although a very difficult decision for 
Abitibi-Consolidated, the losses that mounted during the most 
recent years of the mill's operation abated much of the profit 
generated from the company's other operations in the U.S. And 
Canada.
    With the idling of the mill, nearly 600 local employees 
were laid off and countless other jobs in the region were 
impacted from the loss of some of the highest paying positions 
in the county.
    It was reported earlier this year to this Committee by a 
representative of the American Forest & Paper Association that 
92 pulp and paper mills have closed in the U.S. In the past 
five years, resulting in a loss of 47,000 jobs.
    The Lufkin mill, along with our Sheldon facility, are real 
examples of this statistic. Abundant and affordable energy is 
needed to support the jobs of those who produce the paper and 
forest products our nation depends on.
    Legislation should minimize restrictions and consolidate 
the process for approval of drilling permits. Infrastructure to 
bring natural gas to market should likewise be improved in an 
expedient manner. Reserves can then be brought to market using 
existing environmental-friendly technologies without undue 
delay.
    We appreciate the Committee's interest in understanding 
energy costs as they have affected our operations here locally, 
and we will be happy to answer any questions.
    [The prepared statement of Ms. Johnston follows:]

        Statement of Debbie Johnston, Public Affairs Director, 
                          Abitibi-Consolidated

    Mr. Chairman and Members of the Task Force, my name is Debbie 
Johnston. I am a Public Affairs Director for Abitibi-Consolidated, with 
responsibilities for most of the Company's manufacturing and paper 
recycling operations in the Southern half of the U.S.
    Abitibi-Consolidated is a global leader in the production of 
newsprint and uncoated groundwood papers, as well as a major producer 
of wood products with operations located in the U.S., Canada, the UK, 
South Korea, China and Thailand.
    The Company's Lufkin facility has deep-rooted ties to the local 
community. The mill began operations in 1940, after the discovery of a 
manufacturing process allowed the removal of pitch and resin from 
Southern pine trees, and financial investors agreed to bankroll the 
construction of a newsprint mill in Deep East Texas to prove that the 
process worked. Out of this risky venture, the manufacture of newsprint 
in the Southern U.S. began, and the newspaper industry was freed from 
its dependency on paper manufactured in the Northeastern region of the 
US, and in Canada.
    Original owners of the facility--Southland Paper Mills, Inc.--
employed over 250 local individuals, as well as some Canadian 
papermakers who migrated South to help share papermaking skills with 
the less experienced laborers in Texas. The Company grew quickly, 
adding additional paper machines, as well as second newsprint mill in 
Sheldon, Texas in 1967.
    In 1977, Southland Paper was purchased by St. Regis Paper Company, 
expanding the scope of the operations. St. Regis invested heavily in 
the Lufkin mill, upgrading key pieces of processing equipment and the 
mill registered gains in production, sales, and profitability.
    In September of 1984, Champion International Corporation announced 
it had agreed to purchase St. Regis. The combined capacity of Champion 
International Corporation was now three million tons per year, making 
it the industry's largest manufacturer of ``white paper''. The two 
Texas mills also made Champion the second largest domestic producer of 
newsprint.
    However, over the years dramatic changes in the newspaper industry, 
as well as a decline in demand for newsprint and a lack of continued 
investment in the Lufkin mill by Champion led the Company to divest 
itself of its two Texas mills and paper recycling operations. In 1998, 
after nearly a year of searching for a buyer for the Texas assets, they 
were purchased by Donohue Inc.'' headquartered in Montreal, Quebec.
    Donohue executives quickly recognized the value of owning a mill in 
the south to manufacture a new grade of paper--super-calendered--hat 
could provide printers and publishers in the South with paper for sales 
catalogs, advertising flyers, and coupons. The Company purchased a 
large paper machine that had been idled and packaged for shipment to 
New Zealand, and was currently sitting on a site in British Columbia. 
The machine was transported by a cargo ship to the Port of Houston, and 
hundreds of shipping containers were trucked to Lufkin. The machine 
took approximately 1 1/2 years to assemble on the Lufkin mill-site, 
along with other upgrades to the facility made at the same time to 
improve environmental performance and enhance product quality.
    However, in 2000, midway through this extensive modernization 
project, Donohue was acquired by another Canadian newsprint 
manufacturer--Abitibi-Consolidated. Abitibi-Consolidated was committed 
to completing the modernization of the mill, and starting up the new 
paper machine to produce super-calendared paper. The Company completed 
the project at a cost of over $350 million--the largest single 
investment ever made in Angelina County. In August of 2001, the new 
paper machine began production--notably one of the largest paper 
machines in North America to produce this grade of paper.
    The mill modernization project involved not only the addition of 
the new paper machine, but also included extensive changes to the pulp 
bleaching area that resulted in significant improvement in the 
environmental performance of the mill. The mill was converted to an 
oxygen bleaching system, removing the use of elemental chlorine in the 
process, and the mill's on-site waste treatment facility was upgraded 
and expanded, making it a state-of-the-art facility in the industry. 
The mill can now meet all of its proposed wastewater permit limits, 
which are considered to be the most restrictive of all Southern U.S. 
kraft mills.
    Although demand for super-calendared paper remained moderately 
strong during the 2001-2002 period, demand for newsprint began to sag 
dramatically, and in December of 2002, the Company announced the idling 
of its newsprint mill in Sheldon, Texas. New emphasis was placed on the 
Lufkin mill, with a great deal of focus on reducing manufacturing costs 
as the mill began to feel the pressures of an international 
marketplace. The new large machine continued to produce a HiBrite grade 
of newsprint, along with a super-calendared grade, but the mill's 
second paper machine--used strictly for manufacturing newsprint and 
newsprint grades--continued to be idled for weeks at a time to adjust 
for growing inventory levels and sluggish demand in newsprint.
    It was also during this time, 2002-2003, that mounting energy costs 
began to eat away at what had once been a promising investment amongst 
the Company's assets. The Lufkin mill's energy infrastructure was put 
in place when natural gas was cheap, plentiful, and preferred as one of 
the cleanest burning fuels available. The mill self-generated 
approximately 50% of its energy needs, and purchased the remainder from 
a local provider. During this time period, monthly energy bills began 
to reach the $3 million mark, and continued to climb. By 2003, for 
every $1 increase in the price of natural gas, the mill's annual energy 
costs increased by $11 million.
    As natural gas prices rose and sustained themselves at these higher 
levels, the mill could not overcome the ``bleeding'' caused by these 
exorbitant costs. In an effort to ``stop the bleeding'' at the Lufkin 
facility, the Company announced in December of 2003 to indefinitely 
idle the Lufkin mill. For the mill, uncontrollable energy costs also 
came at a time when demand for super-calendared paper grades and 
newsprint were not strong enough to command pricing that would cover 
manufacturing costs.
    Although a very difficult decision for Abitibi-Consolidated, the 
losses that mounted during the most recent years of the mill's 
operation abated much of the profit generated from the Company's other 
operations in the U.S. and Canada. And adding to an already difficult 
operating environment, the U.S. dollar remained weak.
    With the idling of the Lufkin mill, nearly 600 local employees were 
laid off, and countless other jobs in the region impacted from the loss 
of some of the highest paying positions in the County.
    It was reported earlier in the year to this Committee by a 
representative of AF&PA (American Forest & Paper Association), that 92 
pulp and paper mills have closed in the U.S. over the past five years, 
resulting in a loss of 47,000 jobs. The Lufkin mill, along with our 
Sheldon, Texas facility, are real examples of this statistic. Abundant 
and affordable energy is needed to support the jobs of those who 
produce the paper and forest products our nation depends on.
    So the Lufkin mill continues to sit quiet, housing a small site 
team that maintains the facility and continues to work on energy 
solutions and changes to manufacturing equipment that would allow it to 
manufacture a higher quality grade of paper. And what was once 
considered a pioneer facility in East Texas, and then a giant in the 
paper industry remains idle, but with the hope of some day producing 
paper again.
    The site team is currently investigating opportunities to burn 
alternative fuels in a new multi-fuel boiler, however this is only 
possible with additional significant capital investment--likely $50-70 
million. Capital dollars within the corporation compete with proposed 
projects of other Company facilities--some with much lower 
manufacturing cost structure and higher payback, making an argument for 
an additional investment in the Lufkin mill all the more difficult.
    Although changes to federal energy policies may not come quickly 
enough to help the situation the Lufkin mill finds itself in today, 
energy legislation is required that expands the energy supply--
particularly natural gas--promotes energy efficiency, and encourages 
the development of new technology. Environmental rules and regulations 
have driven industry toward increased gas consumption without providing 
for increased access to the supply that is needed to keep natural gas 
costs competitive.
    Legislation should minimize restrictions and consolidate the 
process for approval of drilling permits. Infrastructure to bring 
natural gas to market should likewise be improved in an expedient 
manner. Reserves can then be brought to market using existing 
environmentally-friendly technologies without undue delay.
    We appreciate the Committee's interest in understanding energy 
costs as they have affected our operations here locally and we would be 
happy to answer any questions.
                                 ______
                                 
    Miss McMorris. Mr. Carrillo?

            STATEMENT OF VICTOR CARRILLO, CHAIRMAN, 
                  RAILROAD COMMISSION OF TEXAS

    Mr. Carrillo. Good morning, Madam Chair, and welcome to 
Texas.
    Miss McMorris. Thank you.
    Mr. Carrillo. My name is Victor Carrillo. I'm Chairman of 
the Texas Railroad Commission; and in spite of our name, we 
oversee the oil and gas industry, the pipeline industry, 
surface mining, and coal mining here in Texas, and natural gas 
utilities.
    My background is in the energy sector as a geologist and 
geophysicist and former energy attorney. Before I was elected 
to my statewide position, I was a county judge for my hometown, 
though I can't sing as well as Judge Kennedy.
    I'm also here on behalf of the Interstate Oil & Gas Compact 
Commission. The IOGCC is a Congressionally ratified interstate 
compact that includes 37 states that, together, produce over 99 
percent of the oil and gas domestically in the U.S. The 
Chairman is Governor Murkowski of Alaska, this year.
    Responsible oil and gas exploration and development and 
stewardship of our land and water resources can both be 
achieved simultaneously. The fact is we see it done here in 
Texas daily.
    In Texas, we are quite proud of our ongoing role as the 
premier energy-producing state in the nation. We're the number 
one producer of oil and natural gas among any of the states. We 
produce about 6 trillion cubic feet of natural gas every year, 
which represents over 25 percent of the total U.S. Demand for 
this clean burning fuel.
    As of yesterday, here in Texas, we had 615 active oil and 
gas rigs operating in the state. That represents almost 50 
percent of the total activity across the nation. There are 26 
refineries in the state, with a total refining capacity of over 
4 million barrels per day, equaling over 25 percent of the 
nation's total refining capacity.
    As our nation's voracious appetite for energy continues to 
grow, Texas has stepped up to the plate and will soon be the 
nation's liquefied natural gas leader, as well. The FERC has 
already approved four new onshore LNG facilities along our 
Texas Gulf Coast. Texas is, indeed, still the preeminent energy 
producing and refining state in the nation.
    In February, I traveled to Washington and testified before 
a House committee in support of the Energy Policy Act of 2005, 
and I believe that the House version is a very good first step 
to help ensure our nation's future energy security.
    Turning to today's topic, there's no country in the world 
that produces its natural resources, oil, natural gas, coal, to 
higher environmental standards. Texas and the other energy-
producing states are proud of these environmental standards, 
for we do indeed believe that we have a stewardship 
responsibility over our land and water resources. But the ever 
growing and often Draconian legislative environmental laws and 
regulations sometimes threaten the future development of our 
domestic energy resources: Oil, gas, and coal.
    Recognizing that my time is limited, let me hit a few quick 
topics; and perhaps we can fill in with some questions.
    I encourage opening up areas currently off limits to 
exploration, whether it's oil, gas, coal, in the Intermontane 
West, in Alaska, and in our Outer Continental Shelf areas.
    And pertinent to this Task Force, we should also seek to 
streamline the regulatory process for areas that are already 
open for development but that are frequently tied up in 
sometimes unnecessarily complicated environmental regulations.
    I recently completed an IOGCC survey identifying several 
factors that inhibit some of this development, including the 
fact that when state and Federal entities both have permitting 
responsibilities for oil and gas development, state entities, 
frankly, can get the job done about 20 to 35--in about 20 to 35 
percent of the time that it takes for a Federal permit in the 
same state.
    Wildlife issues often delay the permitting of oil and gas 
development; and response to this survey encouraged 
consideration of offsite impact mitigation to address some of 
these wildlife habitat issues.
    We also recommend specific approve or deny timetables for 
oil and gas permits to avoid a permit languishing in a Federal 
agency for months and sometimes years.
    In summary, the IOGCC supports the concept of revamping 
NEPA to streamline the process without negatively impacting 
true environmental concerns.
    I have some comments with regard to storm water runoff 
issues that I won't be able to cover but that impact NEPA, 
also, and hydraulic fracturing issues, both of which are dealt 
with, I believe, appropriately in the Energy Policy Act of 2005 
in the House version.
    Let me just--let me just wrap up by saying that no doubt 
certain environmental laws and regulations are essential to 
protect the public health and safety. However, many of these 
environmental laws far exceed their original intent. To the 
degree that we can, both at the state level and the Federal 
level, we must limit government regulations that all too often 
are over broad, complex, costly, and that stifle innovation, 
ingenuity, and investment growth.
    Finally, let me just emphasize the need for flexibility in 
the laws and the regulations and the regulatory oversight as 
opposed to having rigid, unbendable rules and laws that I think 
ultimately limit the development of our natural resources.
    With that, I'll wrap up. Thank you for the opportunity to 
be here with you today.
    [The prepared statement of Mr. Carrillo follows:]

              Statement of Victor G. Carrillo, Chairman, 
                       Texas Railroad Commission

    Madame Chair McMorris, Congressman Gohmert, members--my name is 
Victor Carrillo and I appreciate the opportunity to testify before you. 
I am Chairman of the Texas Railroad Commission. In spite of the name, 
we oversee the Texas oil & gas, pipeline & surface mining industries, 
including lignite coal mines. My background is in the energy sector as 
a former exploration geologist/geophysicist and oil & gas attorney.
    I am also here today on behalf of the Interstate Oil and Gas 
Compact Commission (IOGCC). IOGCC member states produce over 99% of the 
oil and natural gas produced onshore in the U.S. Formed in 1935, the 
IOGCC is a congressionally ratified interstate compact that includes 30 
member and 7 associate states. Our 2005 Chairman is Governor Murkowski 
of Alaska. I will be 2nd Vice Chair of the organization for the 
upcoming year.
    The mission of the IOGCC is two-fold: to promote conservation and 
efficient recovery of domestic oil and natural gas resources while 
protecting human health and the environment. Though many would have you 
believe that those dual goals are mutually exclusive--let me assure you 
they are not. Responsible oil & gas exploration and development and 
stewardship of our land and water resources can both be accomplished 
simultaneously. We see it done in Texas day in and day out.
    In Texas, we are quite proud of our ongoing role as the premier 
energy producing state in the nation. Texas is still the #1 producing 
state for oil and natural gas. We produce about 6 Trillion Cubic Feet 
of natural gas per year, which represents over 25% of total U.S. demand 
for the clean burning energy source. We are also the 5th largest 
producer of coal in the nation.
    As of one week ago, Texas had 619 active oil & gas rigs operating 
in the state--representing almost 50% of all land rigs in the nation. 
And as a nation as we move to establish more LNG (liquefied natural 
gas) facilities, I'm proud to say that four new onshore LNG facilities 
have already been given the green light by FERC along our Texas Gulf 
Coast.
    Texas has the most extensive pipeline infrastructure in the nation 
with over 250,000 miles of underground petroleum pipelines throughout 
the state. There are 26 refineries in the state with a total refining 
capacity of over 4 million barrels per day, equaling over 25% of the 
nation's total refining capacity. Texas is still the preeminent energy 
producing and refining state in the nation.
    In February, I testified in Washington alongside Governor Frank 
Murkowski of Alaska in support of the Energy Policy Act of 2005. I 
continue to believe that the House version is a very good first step to 
help ensure our nation's future energy security by helping to maximize 
the production of our domestic petroleum resource.
    Turning to today's topic, no country in the world produces its oil, 
gas and coal to higher environmental standards. Texas and the other 
energy producing states are proud of these environmental standards for 
we believe that we have a stewardship responsibility for our land and 
water resources. But the ever growing and often Draconian federal 
environmental laws and regulations threaten future exploration, 
production, and refining capacity.
    I'd also like to point out that while Texas is the top oil and gas 
producing state, Texas also ranks first in overall consumption of 
petroleum, natural gas, coal, and electricity. So we share the national 
concern for reliable energy supply sources at reasonable and stable 
prices. A secure source of domestically produced oil, natural gas, and 
coal is in the best interest of all--producing and consuming states 
alike.
    Recognizing that my time is limited, let me address just a few 
specific hot topics.

Stormwater Runoff.
    I am concerned with EPA rulemaking under the NPDES Stormwater 
Permit Coverage for Small Oil & Gas Construction Activities which would 
potentially require a stormwater permit of oil & gas operators for 
activities affecting one acre or more, particularly with their 
interpretation of ``common plan of development'' concept in the 
Construction General Permit. EPA's rule would improperly seek to treat 
oil & gas activities activities like residential/commercial 
construction activities--and they are not the same. In residential/
commercial construction projects, there is often a common plan of 
development that would impact an aggregated area of disturbance. With 
oil & gas exploration, there is no guarantee of success of the first 
well, much less any subsequent wells. In fact, let's say you drill a $2 
million dollar exploratory well and you find nothing or at least 
nothing that is economic to produce, then any plans for future wells in 
that immediate area project will likely never come to fruition. For the 
oil & gas producer, there simply is no common plan of development in 
the vast majority of cases.
    A recent independent economic analysis completed for the U.S. 
Department of Energy (Estimated Economic Impacts of Proposed Storm 
Water Discharge Requirement on Oil & Gas Industry Report from Advance 
Resources International, Inc. to U.S. DOE Office of Fossil Fuels, Dec. 
2004) estimated that just this one EPA regulatory change could cost the 
country from 1.3 to 3.9 billion barrels of domestic oil production and 
15 to 45 trillion cubic feet of domestic gas production over the next 
20 years. To put that into context, and taking the median of those 
numbers, that represents over five years of Texas natural gas 
production and over seven years of Texas oil production that would be 
lost.

Hydraulic Fracturing.
    There is a current effort in the context of the Energy Bill seeking 
to broadly regulate hydraulic fracturing under the Safe Drinking Water 
Act for the very first time ever. Hydraulic fracturing is a technique 
developed in oil & gas exploration to fracture deep underground oil & 
gas bearing strata, thus releasing more of the oil & gas to be 
produced. The technique has been safely and successfully used in states 
like Texas for decades without any known negative impact to drinking 
water supplies. In the vast majority of wells that have used these 
techniques in Texas, the fracture zone is thousands of feet deep, well 
below any possible contact with the drinking quality water, which is 
generally limited to a few hundred feet from the surface.
    Technological advancements allow industry to find & produce more 
domestic oil & gas, more efficiently, where we already know it to 
exist. It is technological advancements like hydraulic fracturing, that 
have allowed the Barnett Shale Gas Play near Dallas/Ft. Worth to 
develop into the largest producing gas field in Texas and one of the 
hottest gas plays in the nation. Without the ability to use hydraulic 
fracture techniques in the Barnett Shale, this huge gas deposit would 
not be economic to produce.
    A one-size fits all, federally mandated, EPA administered 
regulatory approach in this issue unnecessarily trammels state rights 
to oversee this activity in our state, by our own more flexible and 
appropriate means. State programs like ours in Texas have for almost 
100 years protected precious ground water resources while allowing 
domestic oil and gas production to supply our national energy needs.
Refining (Downstream).
    There has been no major new refinery built in the U.S. since 1976. 
Did you know that now, in addition to importing almost 60% of the oil 
(unrefined) that we need, we are now importing about 10% of the refined 
gasoline that we need. The fact is that there is limited domestic 
refining capacity. We had over 300 U.S. refineries in 1980. At the end 
of 2003, there were about 149--a 50% reduction. Most are running at 
near capacity.
    Why have no U.S. based refineries been built in almost three 
decades? While NIMBY plays an important role, so do the incredibly 
stringent environmental controls (NEPA, Clean Air Act, Clean Water Act, 
RCRA, etc.) that apply to new major construction. Some estimates 
suggest that it would take several hundred permits and at least $2 
billion to build a new refinery--perhaps half of that cost attributable 
to the regulations directly
    In the last decade alone, industry has invested almost $50 billion 
in environmental improvements to existing facilities. And we wonder why 
gasoline prices are at their current prices.

Access to Public Lands.
    One final issue I will mention is the need to encourage opening up 
areas currently off limits to oil and gas exploration--areas in the 
Intermontane West, in Alaska, and in our Outer Continental Shelf (OCS) 
regions. And pertinent to this task force, we should also seek to 
streamline areas that are already open to exploration but that are 
frequently tied up in unnecessarily complicated environmental 
requirements, particularly on federal lands.
    In summary, I believe that we would all do well to support the 
general notion that ``government that governs least governs best.'' No 
doubt, certain environmental laws and regulations are essential to 
protect the public health and safety. However, many of these 
environmental laws far exceed their original intent. To the degree we 
can, we must reel in and restrain government regulations that all too 
often are overbroad, complex, and costly and that stifle innovation, 
ingenuity & investment growth in private sector. When the federal 
government does pass a law or regulation, it should be simple, clear, 
understandable, limited in scope, reasonable, practical, & pass the 
common sense test.
    Finally, let me emphasize the need for flexible regulatory 
oversight and management tools as opposed to rigid, Draconian measures 
that simply add cost and delay, and ultimately limit domestic energy 
production at the very time that we need to be more, not less, energy 
self sufficient.
    Thank you so much for the opportunity to appear before you today. 
If I can provide any additional information, please just ask. I 
personally stand ready to assist you in any energy-related matter in 
which you are interested.
                                 ______
                                 
    Miss McMorris. Mr. Dean?

              STATEMENT OF STEVE DEAN, PRESIDENT, 
                  TEXAS FOREST PRODUCTS, INC.

    Mr. Dean. How is that for the mike?
    Miss McMorris. Very good.
    Mr. Dean. I want to thank Congressman Gohmert for giving me 
the opportunity to testify. I also thank Madam Chairman and 
other Committee members who couldn't come to East Texas today.
    My remarks are going to be limited primarily to water.
    In 1997, the Texas Legislature passed Senate Bill One, in 
which Texas was divided up into 16 geographical areas; and a 
water group was formed for each area. Board members represented 
a cross-section of the general public, counties, 
municipalities, industry, agricultural, small business, 
environmental, river and water districts, and utilities.
    Each group had a state and Federal agency representation 
member, plus coordinating members from adjoining states, from 
adjoining regions, and from the Republic of Mexico.
    The planning process involved water quality and water 
development.
    At our water meeting on April the 21st, 2004, I addressed 
the board with the following comments regarding drinking water 
and arsenic:
    Since 1942, the U.S. has maintained a standard of 50 parts 
per billion of arsenic in drinking water. Taking the current 
drinking water standards into account, Texans enjoy some of the 
best drinking water in the entire world. The Safe Drinking 
Water Act of '74 mandated by amendment that arsenic standards 
would be reviewed.
    After a 16-year review by the National Research Council and 
further review by the EPA, ultimately--based on the standards 
set by the World Health Organization and the European Union, 
the EPA recommended the adoption of 10 parts per billion.
    Water supply proponents argued that the existing 50 parts 
per billion were sufficient, while environmental groups pushed 
for more stringent standards, some as low as three parts per 
billion. This (inaudible) would not pass three parts per 
billion. President Clinton signed an order adopting 10 parts 
per billion as the new standard in the final days of his 
administration.
    The new standard was one of those last-minute rules forced 
upon the administration.
    When President Bush suggested that the standards be left 
unchanged, headlines throughout the Nation stated, ``Bush 
proposes to add arsenic to drinking water.''
    During one of our Water Planning meetings, I asked our 
Texas Water Development Board representatives whether the 
impact of the new drinking water standards were being 
considered in calculating our revised water inventory models. 
He said, ``No.'' No consideration was being given to how the 
new standards would impact the current water inventory.
    As a result of those comments, I made a recommendation to 
the Water Board; and I'll read that:
    I would offer a motion that we adopt a resolution in 
support of the current administration's desire to retain the 50 
parts per billion standard until such time as water inventory 
calculations and scientific data are taken into account and 
that any recommendation to change these standards be broad 
based and discussed in the light of public scrutiny.
    The Region D Planning Board adopted that motion.
    And then as far as water development goes--economic 
development, water, energy, transportation, urban development, 
aviation, timber, agricultural, industry, all face huge 
challenges for success in the future. It all depends on water.
    I made this comment to our Water Board:
    Worthy water projects considered for the Texas 2050 Water 
Plan have come under attack from stakeholders who agree that 
water is needed, but who disagree with the idea of the 
multiplier effect of mitigation imposed by the Corps of 
Engineers.
    Environmental interests have already removed the ability of 
East Texans in Region D to provide for their own water 
development by blocking construction on the Sabine River at 
Waters Bluff.
    Mitigation requirements have doubled, tripled, quadrupled, 
and in some cases, proposed acreage set-asides that are forced 
on landowners as a result of well-thought-out, logical, and 
reasonable development.
    Mitigation requirements are being used as an enforcement 
tool against water planners by the U.S. Army Corps of Engineers 
with disregard to the underlying stated reasons for mitigation 
lands in the first place.
    When reasonable accommodations from the Corps are requested 
for consideration by stakeholders, the request is generally 
considered, but almost universally fall upon deaf ears.
    As board members of the Water Board, we realized that 
common sense was a necessary ingredient in making a decision. 
Consequently, I offer this resolution: Mitigation rules, as we 
know them and as we are forced to abide by them, have nothing 
to do with common sense. The State of Texas was built upon 
sound thinking and common sense. Texas and the U.S. will thrive 
in the future if we stay with common sense.
    I will, therefore, offer a motion that this regional water-
planning group adopt a resolution to remove the total concept 
of mandating and managing mitigation lands from the Corps of 
Engineers and turn it over to the individual states.
    The Region D planning group adopted my motion.
    Madam Chairwoman, this concludes my remarks. I have 
attached the minutes of the water board meeting where these two 
resolutions were passed. I appreciate your time.
    [The prepared statement of Mr. Dean follows:]

             Statement of Stephen E. Dean, President/CEO, 
                         Forest Products, Inc.

    I want to thank Congressman Gohmert for giving me the opportunity 
to testify today. I also thank Madame Chairman and other committee 
members for coming to East Texas. I could speak on a number of 
environmental issues that have affected me and my family on a very 
direct and personal level. However, I will limit my remarks to an issue 
that affects everyone in the country.

WATER
    In 1997 Senate Bill One was passed by the 75th Texas Legislature. 
The State of Texas was divided up into 16 regional geographical areas 
and a water planning group or board was formed for each area. Board 
members represented a cross section of the general public, counties, 
municipalities, industry, agriculture, small business, environmental, 
river and water districts, and water utilities. Each planning group had 
state and federal agency representation plus coordinating members from 
adjoining states, from adjoining regions, and from the Republic of 
Mexico.
    I was selected to serve on the initial group for Region D, and I 
eventually served three consecutive 2-year terms. Senate Bill One laid 
out a planning process that would address the water needs for the State 
of Texas through the year 2050.
    The planning process involved water quality issues and water 
development issues.
    At our water meeting on April 21, I addressed the board with these 
comments regarding drinking water and arsenic.
    Since 1942 the U.S. has maintained a standard of 50 parts per 
billion of arsenic for drinking water. Taking the current drinking 
water standards into account, Texans enjoy some of the best drinking 
water in the entire world. The Safe Drinking Water Act of 1974 mandated 
by amendment that arsenic standards would be reviewed by 1996.
    After a 16-year review beginning in 1983, the National Research 
Council recommended in 1999 that stricter Arsenic standards be 
developed as ``soon as possible'', but gave no specific 
recommendations. Next, the EPA studied arsenic effects in other parts 
of the world and finally recommended adoption of 10 parts per billion, 
the drinking water standard of the World Health Organization and the 
European Union.
    Water supply proponents argued that the existing 50 ppb standards 
were OK while environmental groups pushed for more stringent standards, 
some as low as 3 ppb. In the final days of his administration, 
President Clinton signed an order adopting 10 ppb as the new standard.
    In 1936, there were 2,411 pages in the Federal Register.
    Today there are approximately 75,000 pages. President Clinton added 
29,000 pages during the waning days he was in office.
    The new arsenic standard was one of those last minute rules. 
Because of the manner in which it was forced upon the incoming 
administration, with no public forethought or opportunity for 
discussion, it is clear that the decision to change the standards was 
completely politically and not scientifically motivated. When President 
Bush suggested that the standards be left unchanged, headlines 
throughout the country stated ``Bush Proposes To Add Arsenic to 
Drinking Water.''
    Early in the Bush administration, during one of our Water Planning 
meetings, I asked our Texas Water Development Board representative 
whether the impact of the new drinking water standards were being 
considered in calculating revised water-inventory models.
    He answered NO. No consideration was being given to the impact the 
new arsenic standards would have on existing water inventories. The 
water supply models that our consultants and the TWDB use do not take 
into account the new more stringent standards.
    As a water-planning group, we were obligated to set aside political 
motivation and seek the best and most reasonable course of action to 
provide water for Texas for the future. We are obligated to use good 
science and common sense.
    I would offer a motion that we adopt a resolution in support of the 
current administration's desire to retain the 50 ppb standards for 
arsenic until such time as water inventory considerations and 
scientific data are taken into account, and that any recommendation to 
change the standards be broad based and discussed in the light of 
public scrutiny.
    Naturally occurring background levels of arsenic in soil tests in 
Gilmer are in the 12 ppb range.
    As goes water development, so goes economic development.
    Economic development, water, energy, transportation, urban 
development, aviation, timber management, agricultural, and industrial 
planners in Texas face a HUGE challenge to success in the future.
    I made the following comments to the water board...
    Worthy water projects considered for the 2050 Texas Water Plan have 
come under attack from stakeholders who agree that water is needed, but 
who disagree with the idea of the multiplier effect of mitigation 
requirements imposed by the USACE.
    Environmental interests have already successfully removed the 
ability and right of East Texas stakeholders in Region D from being 
allowed to decide for themselves about water development for their use 
in the local area on the Sabine River at Waters Bluff.
    Mitigation requirements have doubled, tripled, quadrupled, and more 
in some cases the proposed acreage set-asides that are forced on 
landowners as a result of well thought out, logical, and reasonable 
development.
    Mitigation requirements are being used as an enforcement tool 
against water planners by the U.S. Army Corps of Engineers...with 
disregard to the underlying stated reasons for mitigation lands in the 
first place.
    When reasonable accommodations from the USACE are requested for 
consideration by the stakeholders, the requests are generally 
considered but almost universally fall upon deaf ears.
    Members of the Region D Water Planning Group were selected because 
they represent the stakeholders of the region. When they make a 
decision, the individual member and his family must live with the 
consequences, good or bad for the future.
    As board members we recognize that common sense is a necessary 
ingredient in decision making for our future.
    Mitigation rules as we know them and as we are forced to abide by 
them have nothing to do with common sense. The State of Texas was built 
upon sound thinking and common sense. Texas and the U.S. will thrive in 
the future if we stay with common sense. I would therefore offer a 
motion that this regional water-planning group adopt a resolution to 
remove the total concept of mandating and managing mitigation lands 
from the USACE and turning it over to the individual States.
    The Region D Planning Group adopted my motion.
    Madame Chairman, this concludes my remarks. I have attached the 
minutes of the water board meeting where the two resolutions were 
passed.
    Thank you,
                                 ______
                                 
Attachment

     Minutes of the North East Texas Regional Water Planning Group

                  Wednesday, April 21, 2004--2:00 P.M.

                          Gilmer Civic Center

                              US 271 North

                             Gilmer, Texas

    The Region D Water Planning Group (NETRWPG) met in an open meeting 
on Wednesday, April 21, 2004, at 2:00 P.M. The meeting was held at the 
Gilmer Civic Center located on U.S. 271 North, Gilmer, Texas. Notice of 
the meeting was legally posted.
    The meeting was called to order and invocation given by Chair 
Williams at 2:00 p.m. A quorum was present.
    The following voting members were present:


                ,--                                   ,

        Larry Calvin                 Mendy Rabicoff
        Steve Dean                   Vernon Rowe
        John Durgin                  Jim Thompson
        George Frost                 Tony Williams
        Gary Jackson                 L. D. Williamson
        William R. Justiss           Terry Winn
        Richard LeTourneau           Beth Wisenbaker
        David Parsons                Eldon Wold


    The following non-voting members were present:
        Virginia Towles, representing Texas Water Development Board
        Mike Rickman, representing Region C
        Bobby Praytor, representing City of Dallas
        Tommy Slater, representing AEP/SWEPCO
    The following non-voting members were absent:
        Curtis Campbell, representing Region B
        Jerry Clark, representing SRA
        Kevin Craig, Corps of Engineers
        Glenda Kindle, Liaison for Region I
        Robert McCarthy, NTMWD
        W. David Ryburn, representing City of Irving
        Thomas E. Taylor, representing Upper Trinity Regional Water 
        District
        Greg Conley, representing TP&W
    The following alternates for non-voting members were present:
        Michael Brice, representing Greg Conley
    The following voting members were absent:
        Charles Ball
        Barry Boswell
        John Bradley
        Gerald Brewer
        Mike Dunn
        C. W. Forsyth, represented by Aaron Gann
        William Y. Rice
    Committee members and alternates each identified themselves and 
acknowledged the county and area of interest represented.
    Minutes of the February 18, 2004 meeting were approved, on a motion 
by Mendy Rabicoff and seconded by Gary Jackson. Motion carried, all 
voting aye.
    Gary Jackson made a motion to approve the notice concerning 
expiring terms of Regional Planning Group members. Beth Wisenbaker 
seconded the motion. Motion carried, all voting aye.
    Mr. James Beach of LBG-Guyton Associates gave a presentation 
concerning groundwater supply and related modeling. Chair Williams 
thanked Mr. Beach for the informative presentation.
    After discussion on the topic of arsenic, Steve Dean made a motion 
to approve a resolution in support of the current administration's 
desire to retain the 50 ppb standards for arsenic until such time as 
water inventory considerations and scientific data are taken into 
account and that any recommendation to change the standards be broad 
based and discussed in the light of public scrutiny. Gary Jackson 
seconded the motion. Motion carried.
    After discussion on the topic of mitigation, Steve Dean made a 
motion to approve a resolution to remove the total concept of mandating 
and managing mitigation lands from the USACE and turning it over to the 
individual states. Vernon Rowe seconded the motion. Motion carried with 
a vote of 10 votes for and 6 votes against.
    Vernon Rowe made a motion to approve BWR invoices and the financial 
report as presented. Terry Winn seconded the motion. Motion carried, 
all voting aye.
    Jim Thompson, the group's liaison to Region C, gave an update on 
two recent meetings.
    Terry Winn presented a report to the group concerning the 
Desalination Workshop which he attended in Austin. He stated that three 
projects are actually being funded. They are Rio Grande, Corpus Christi 
and Freeport. Mr. Winn advised that the price for this activity will be 
approximately $2.50 per thousand gallons but the price may not include 
brine disposal stream. Virginia Towles, of the Texas Water Development 
Board, added that there is information concerning desalination 
available online and reminded the group of the Groundwater Rule of 
Capture meeting in Austin on June 15th.
    The meeting was then opened for public comment concerning water 
planning efforts. Comments were received from Mr. David Nabors of 
Paris.
    Wednesday, May 19, 2004, at 2:00 p.m. was established for the next 
meeting date at the Gilmer Civic Center.
    The meeting was adjourned at 3:30 p.m.
            Terry Winn, Secretary/Treasurer
    Additional Attendees:
        Walt Sears -- NETMWD
        Stan Hayes -- NRS Engineering
        Ray Flemons -- Bucher, Willis & Ratliff
        James Beach -- LBG-Guyton Associates
        William W. Brown -- NETMWD
        Michelle Thorne -- NETMWD
        Nancy Stirl -- NETMWD
        Jodi Sheridan -- Texarkana Gazette
        Shirley Shumake -- DeKalb
        Sharon Nabors -- Paris
        David Nabors -- Paris
        Patricia MeKelvey -- Bogata
        Joe Max McKelvey -- Bogata
        Wendell Davis -- Clarksville
        Gordon Hall -- Mt. Pleasant
        Helen Sessums -- Bogata
        Floyd Sessums -- Bogata
        Max Shumake -- DeKalb
        Jack Grant
        Mary Grant
        Linda Henderson -- Douglasville
        Eric Birdsong -- Denton
        Bessie Heath -- Douglasville
        Richard Zachary -- Mt. Vernon
        Tommy Spruill -- Mt. Pleasant
        Mary Templeton -- Lake Creek
        Bill Templeton -- Lake Creek
        Melvin Reynolds -- Gilmer
        Greg Carter -- Corpus Christi
        Nancy Clements -- Douglassville
        Bob Bowman -- Longview
        Robert Haney -- Longview
        L. D. Caudle -- Maud
        Red Birdsong -- Denton
                                 ______
                                 
    Miss McMorris. Mr. Smith?

         STATEMENT OF STEVE SMITH, EXECUTIVE DIRECTOR, 
            TEXAS MINING AND RECLAMATION ASSOCIATION

    Mr. Smith. Good morning, Chairwoman McMorris and 
Congressman Gohmert. I appreciate the opportunity to be here 
this morning. My name is Stephen Smith, the Executive Director 
of the Texas Mining & Reclamation Association.
    We're a (inaudible) association. We have a little over a 
hundred member (inaudible) companies that are either owner/
operators in the mining business, active mining operations or 
(inaudible) provide goods and services to these owner/
operators. We mine a lot of resources in the state. Among the 
resources that our members mine are clay, sand, stone, gravel, 
uranium, lignite, and coal.
    What I would like to share with you are some recent 
examples of some of our members--and I typically refer to this 
association as TMRA or TMRA (different pronunciation), with an 
acronym--some of the TMRA members have gone through in recent 
years and talked about some of the good things that happened 
and some things that maybe were not--not so helpful.
    But TMRA--we tend to support the NEPA process as it was 
originally deemed by Congress, and we urge that this Task Force 
carefully consider whether the NEPA processes are necessary to 
duplicate the processes of other Federal environmental statutes 
which have been implemented since NEPA.
    We appreciate the work that you've already done. It's a 
tough job. We look forward to continuing to work with you to 
achieve an efficient NEPA process.
    Several of our members were involved with the NEPA process 
during the '70s, '80s, early '90s as they expanded their 
(inaudible).
    Recently, we've had two member companies who have gone 
through the NEPA process, either completed it or are currently 
involved with it right now. For one particular company, the EIS 
was recently completed in the (inaudible) time period. I don't 
know what the cost was. It was an undisclosed cost. The final 
EIS was 780 pages in length, and I really don't know if that's 
good or bad in terms of some of the standards across the 
country. But that has been published and the process followed. 
Their (inaudible) permit has been issued.
    There were some positive experiences. Some things worked 
well for this particular company. One thing in particular is 
the project manager that was assigned to that company was a 
very organized, efficient individual. This individual was very 
conscientious of deadlines. They were obviously focused on 
conducting a very efficient process.
    So whether that was the luck of the draw or what, I really 
don't know. They could have just as easily been assigned a 
project manager who did not have those skills and then maybe 
their experience would not have been so good.
    I think what's interesting, though, is the decision to 
conduct that EIS rather than pursue the nationwide (inaudible) 
option for their (inaudible) permit was really driven by the 
company and not the agency. It was basically a legal decision 
that company made in response to a recent court decision that 
required an EIS on a pipeline company here in the state even 
though there were no grounds for requiring such a study.
    So the timing of obtaining that permit was very critical to 
this company, and they felt like the timing anticipated would 
be less if we went ahead and pursued the EIS up front rather 
than pursuing the nationwide (inaudible) and taking the chance 
of added time to allow for a court-driven EIS. So basically, it 
was a roll of the dice for them. That's kind of what it's 
evolved to.
    Then as they got into it via the timeline concerns, the 
need for a permit, they had to (inaudible) during the scoping 
process (inaudible) they had to accept (inaudible) that are not 
required under the jurisdiction of any regulatory agency.
    Another one of our companies to employ solution mining 
while mining for uranium has a project out in New Mexico has 
been issued (inaudible) material license. They were oversighted 
by ELM, NRC, and the Bureau of (inaudible) Affairs; and when it 
got down to choosing whether to do an EA or an EIS--typically, 
these types of projects across the country are handled by an 
EA, at best, because of the low environmental impact of that 
particular operation.
    In this case, the EA did not have (inaudible) and 
regulations to address the EA; so it had to go through the EIS 
process, which they did, costing several million dollars. They 
published that in February of 1997, so--since the publication 
of that, this--this EIS has been the subject of litigation 
before the NRC, ASLD and--which has been brought on by various 
intervenor groups.
    So here it is July 23rd, 2005--this is more than eight 
years after publication of the EIS--the company still doesn't 
have its (inaudible) operation. It's spent several more million 
dollars on legal expenses for litigation. Tens of thousands of 
pages of material have been produced. The effort has consumed 
the (inaudible) capabilities of that company and likely will 
increase the cost of fuel.
    Ultimately, the fuel (inaudible) power plants and, 
therefore, the power that homeowners use. The NEPA process in 
their situation, developed really into a procedural filibuster, 
which is what--what has happened there.
    A recent judge's decision that dealt only with water issues 
was 73 pages, and none of the rulings so far--or rather all of 
the rulings have supported the EIS; so really there was no 
technical merit to any of the things (inaudible) by the 
intervenors.
    Miss McMorris. Would you please wrap up, Mr. Smith.
    Mr. Smith. We have recommendations in our written comments. 
I would say in conclusion that NEPA can be fixed. It won't be 
an easy job. It will be a lot of work to do that, but we feel 
like it can be fixed and function like Congress intended it to. 
And it can be fixed so that it can provide certain regulatory 
processes and still continue to protect the environment.
    Thank you very much for the opportunity to comment.
    [The prepared statement of Mr. Smith follows:]

                TEXAS MINING AND RECLAMATION ASSOCIATION

                    111 Congress Avenue, Suite 1800

                          Austin, Texas 78701

                             July 21, 2005

The Honorable Cathy McMorris
Chair
Task Force on Improving NEPA
1333 Longworth House Office Building
Washington, DC 20515

Re: Comments Regarding Necessary Improvements to NEPA

Dear Representative McMorris:

    This letter is submitted on behalf of the Texas Mining & 
Reclamation Association (``TMRA'') and is intended to provide ideas and 
suggestions for improving the National Environmental Policy Act (NEPA) 
to the U.S. House Task Force on Improving NEPA.
Introduction
    TMRA is a state organization comprised of approximately 140 mining, 
electric utility, and supplier companies, and more than 800 
individuals. TMRA supports coordinated, rational, and consistent 
federal, state, and local policies to assure proper economic recovery 
of the state's minable resources in an environmentally sound manner.
    TMRA's members play a vital role in Texas' economy. Mining provides 
more than $28 billion annually to our state and accounts for more than 
50 percent of the local tax base for many of our state's rural 
communities. TMRA members also significantly contribute to the 
environmental health of the state. The Texas mining industry plants 
more than two million trees annually on reclaimed mined land, spends in 
excess of $100 million each year on land reclamation and protection of 
water and air quality and archeological resources, and reclaims land 
for cattle grazing, crops, commercial timber, wildlife habitat, 
wetlands, and recreational use. The industry also promotes and assists 
in the development and implementation of new environmental controls and 
technologies by working in concert with environmental and regulatory 
agencies and university researchers. TMRA industries have a strong 
environmental ethic and have received numerous state and national 
awards for their environmental programs.
Comments
    1.  The Task Force should encourage Congress to revise NEPA to 
eliminate duplicative and overlapping environmental review processes 
given the number of environmental laws that have been implemented since 
NEPA was originally enacted.
    NEPA is a procedural law that creates a formal review process for 
public comments and the consideration of alternatives. NEPA does not 
have any measurable or substantive environmental protection standards.
    Substantive environmental standards are implemented under evolving 
federal and state environmental regulatory schemes where hosts of 
environmental protection authorities are vested with the authority to 
enforce environmental statutes that have been enacted over the last 30-
plus years. Examples of these statutes include the Clean Air Act, Clean 
Water Act, and the Solid Waste Disposal Act. In addition to substantive 
requirements, these statutes have extensive procedural requirements. 
Therefore TMRA believes that Congress should 1) evaluate how NEPA 
interacts with these laws, and 2) identify where there are duplicative 
review processes. Once identified, TMRA recommends that NEPA be revised 
to eliminate duplicative processes.
    2.  The Task Force should work with Congress to clarify the meaning 
of ``major federal action'' and what specific activities trigger a NEPA 
review.
    Generally, determining whether an action is a major federal action 
is the threshold issue for determining whether an EA or an EIS is 
required. Given that certain TMRA members have mining activities that 
present relatively similar concerns and circumstances (i.e. 
environment, geological conditions, and mining methods), it would be 
beneficial to the industry if Congress clarified exactly what types of 
actions were ``major.''
    3.  The Task Force should encourage Congress to mandate 
standardized reviews to ensure a more consistent, reliable, and timely 
review process.
    Although site-specific reviews are a necessary component of the 
NEPA process. There are several standard components of a NEPA review 
that could be standardized to facilitate a more consistent, reliable, 
and timely review process. Mandating the use of standardized revised, 
complete with standardized checklists and timelines (discussed further 
below), will eliminate much of the inconsistency that results from re-
creating the wheel with new agency personnel in each individual case. 
This approach will also enable the regulated industry and the public to 
more accurately gauge the substantive and procedural requirements that 
will apply during a given review so they can better estimate budgets 
and timelines. Therefore, TMRA encourages the Task Force to urge 
Congress to mandate standardization to the maximum extent possible.
    4.  The Task Force should revise NEPA to streamline the number of 
alternatives proposed by agencies.
    Opponents to development routinely use the NEPA process as a delay 
tactic. For example, federal officials are often forced to consider so 
many alternatives (e.g. different locations and project sizes) that the 
review process is tangentially and unnecessarily expanded into many 
different directions.
    From TMRA's perspective, the ``alternatives analysis'' is often 
ill-suited for mining and reclamation activities because geological 
factors---and not mere ``alternatives''--dictate where such activities 
can or should occur. In other words, the coal, ore, or rock is either 
present or it is not. In this simple, but very real-world scenario, 
satisfying the current alternatives analysis requirement becomes a time 
consuming paper exercise that does not add any qualitative or 
quantitative value to the environmental analysis.
    TMRA respectfully request that Congress ensure the agencies' 
alternatives are reasonable and focused on the purpose and needs of the 
specific mining or reclamation project under consideration. A focused 
purpose that keeps the context of the regulated industry in mind will 
ensure that the most reasonable, technologically achievable, and 
economically feasible alternatives are considered.
    5.  The Task Force should ensure that Congress reforms the manner 
and impact of judicial review under NEPA
    Because NEPA issues are usually raised in federal courts, it is 
common for TMRA members to face conflicting judicial opinion among 
various federal courts. These conflicting decisions not only create 
uncertainty for regulated industries, but also create ``venue 
shopping,'' which is the practice petitioners often use to seek out a 
friendlier district to hear their suit. TMRA submits that the Task 
Force should encourage Congress to significantly restrict venue 
shopping.
    Moreover, NEPA judicial review is often used to delay project 
development for years even though the substantive standards of all 
other environmental laws have been satisfied and no other permit or 
authorization is being challenged. TMRA submits that judges should be 
restrained from enjoining project development during NEPA judicial 
review or, at minimum, be required to expedite their decisions.
    6.  The Task Force should evaluate the timing delays associated 
with current NEPA processes and recommend to Congress specific 
timelines for NEPA review.
    To add meaningful structure to the NEPA process, Congress should 
establish clear time frames to all relevant review periods for 
governmental entities. Statutory time frames would create a 
quantitative requirement for all NEPA review processes, and cases would 
be naturally prioritized based on their level of interests and whether 
there were issues that truly impacted the environment. In addition, 
each phase of the NEPA process, including the Categorical Exclusion 
(CE), Environmental Analysis (EA), and Environmental Impact Statement 
(EIS) should have a clearly delineated timeline.
    Revising NEPA to include specific, statutorily-mandated time frames 
would benefit TMRA members by creating certainty during the permit 
application process. Congressional direction that encourages focused, 
streamlined coordination, would also benefit federal agencies by 
increasing efficiency. If governmental agencies failed to comply with 
the statutory time frames, the NEPA review should be automatically 
deemed complete. TMRA believes mandatory ``end dates'' for reviewing 
NEPA-related issues would provide much needed closure for regulated 
entities.
    TMRA notes that this solution is not without precedent. The Council 
on Environmental Quality, as well as several federal land management 
agencies (e.g. U.S. Forest Service and Bureau of Land Management) have 
regulations or guidance documents expressing the need for time limits. 
However, because of the myriad of federal issues or agencies that could 
potentially trigger a NEPA review, only a congressional mandate is 
strong enough to bind all federal agencies. In conclusion, TMRA 
requests that the Task Force recommend to Congress required statutory 
time lines for NEPA review.
    7.  The Task Force should encourage Congress to revise NEPA to 
ensure that non-significant and temporary activities are evaluated 
under ``Categorical Exclusions.''
    Categorical Exclusions (CEs) are an effective tool currently 
authorized under NEPA that provide a mechanism for streamlining and 
speeding up approval for common projects and activities that do not 
threaten the environment. Congress should expand the use of CEs by 
including:
    <bullet>  Existing projects that simply require a renewal permit.
    <bullet>  Activities that are non-significant and temporary.
    <bullet>  Completed or proposed mitigation actions that are 
sufficient to avoid significant impacts.
    It is TMRA's experience that many agencies do not effectively use 
the Categorical Exclusion mechanism because of conflicting court 
decisions. For example, in an effort to avoid costly appeals, agency 
officials often opt to conduct a full-blown EA or EIS to evaluate every 
detail of a proposed activity, although the conditions may not warrant 
such a lengthy review. To encourage the use of categorical exclusions, 
Congress should better define what constitutes a significant impact to 
the environment. As noted, TMRA believes that Congress should promote 
the expanded use of Categorical Exclusions. Such action would allow 
federal agencies to more effectively execute their NEPA 
responsibilities.
    8.  The Task Force should identify areas in the NEPA process that 
would benefit from risk-based decision making.
    As explained, NEPA is a process oriented statute with little or no 
quantifiable methodologies. Currently, risk based criteria are not used 
during a NEPA review. TMRA believes the scientific and technical 
aspects of NEPA would be improved if a more quantifiable approach that 
included some of the fundamental concepts of risk-based decision making 
were taken into account.

Conclusion
    TMRA requests that the Task Force carefully consider these comments 
in their efforts to improve NEPA. TMRA is concerned that the existing 
NEPA process will negatively impact the long-term interests of its 
members.
    TMRA appreciates the opportunity to voice its position and is 
available to assist the Task Force as it further considers the much 
needed refinement of NEPA. If you have any questions regarding these 
comments, please feel free to call at your convenience

                               Sincerely,

                            Stephen F. Smith

                           Executive Director

                                 ______
                                 
    Miss McMorris. Mr. Davis?

           STATEMENT OF W.I. DAVIS, TEXAS FARM BUREAU

    Mr. Davis. Good morning, Chairwoman McMorris and 
Representative Gohmert. Welcome to East Texas, and thank you 
for your efforts in considering this important issue. Thank 
you, Representative Gohmert, for hosting the Task Force and 
championing our local concerns.
    My name is W.I. Davis. I represent the Texas Farm Bureau of 
which I'm a member along with over 380,000 Texas families. The 
Farm Bureau is a grass-roots organization representing the 
interests of rural Texas in agricultural production, which 
includes forestry. Our policies are developed by individuals 
who are actively engaged in production and who know best the 
impact of laws and regulations.
    Texas is proud of its private property ownership heritage, 
but we have considerable economic interests related to timber 
production on Federal lands. The health and prosperity of many 
local communities and families rely on the sound management 
practices of our natural resources. Additionally, private 
holdings are directly impacted by disease and pest conditions 
on adjacent Federal land.
    I am a hands-on active manager of a 3300-acre family tree 
farm for which I've had an interest for the past 60 years. From 
1945 to 1998, we've practiced uneven age management which calls 
for a selective harvest with the remaining seed trees to 
regenerate the area.
    Miss McMorris. I need to ask you to pull the microphone in, 
please.
    Mr. Davis. Beg your pardon?
    Miss McMorris. Please pull the microphone in.
    Mr. Davis. Oh, OK. I'll get it right.
    In the '60s, we experienced a straight-line windstorm which 
damaged 250,000 board feet, which we were able to salvage. We 
left the remaining trees to naturally reseed the voided areas. 
That was a big mistake. From that experience, we learned that 
under stocked stands quickly fill with undesirable herbaceous 
and wood plants which prevent natural regeneration.
    When the 1998 storm hit our farm and the adjoining Sabine 
National Forest, the damage suffered in the '60s was 
remembered. In order to prevent that mistake, we made a 
complete harvest of the severely damaged area and salvaged the 
remaining downed trees. This operation covered 900 acres with a 
salvage of 4.5 million board feet, which was completed by 
midsummer of that year. That was only half of the job.
    From 1998 through 2003, we reclaimed the devastated area by 
site prepping and planting with genetically improved seedings. 
At this time, I am happy to report that over 95 percent of the 
storm damage has been reclaimed and is contributing its part to 
the environment and success of the family tree farm. This was 
only possible because we did not have to wait for over two 
years for an EIS.
    At this time, I would like to refer you to pictures that's 
in your--the first picture is a picture that was made by the 
Austin (inaudible). They came down and did a report on it. The 
gentleman standing there with his back to the picture is my 
daughter's family's consulting partner, and he is near the 
east--the west boundary line of their property. And that 
windstorm went from west to east, and the trees that you see in 
the far distance are U.S. Park Service.
    The next picture shows a stand of trees that is there now. 
The ones on the left are longleaf. The ones on the right are 
loblolly. They're from 15 to 20 feet tall at this time.
    The next picture is a part of the 80 acres that were 
planted with longleaf pine. In that year--which was over 250 
acres. 80 acres of it were longleaf.
    Now, approximately a mile and a half from that first 
picture is what you've got just across the county road. It's 
just wilderness. Nothing has been done. The salvage was made 
but no regeneration.
    These sound management practices, which remove much of the 
dead timber before pest and disease can set in, and reseed 
adequately to prevent trashy undergrowth, contribute greatly to 
healthy woodlands. Similar practices need to be quickly 
implemented on Federal lands when conditions warrant. Our----
    Miss McMorris. Mr. Davis, can you wrap up, please?
    Mr. Davis. Beg your pardon?
    Miss McMorris. You're out of time. Will you wrap up now? 
Then we'll come back and ask some questions.
    Mr. Davis. All right. Again, I want to thank you, 
Chairwoman McMorris and Representative Gohmert. We look forward 
to working with you to achieve positive results in improving 
the National Environmental Policy Act. I will do my best to 
answer any questions later.
    Miss McMorris. Very good. Thank you.
    [The prepared statement of Mr. Davis follows:]

Statement of W. I. Davis, Shelby County Farm Bureau Forestry Chairman, 
                           Texas Farm Bureau

    Good morning Chairwoman McMorris, and members of the Task Force. 
Welcome to East Texas and thank you for your efforts in considering 
this important issue. Thank you Representative Gohmert for hosting the 
Task Force and championing our local concerns.
    My name is W. I. Davis, I am representing Texas Farm Bureau of 
which I am a member along with over 380,000 Texas families. Farm Bureau 
is a grassroots organization representing the interests of rural Texas 
and production agriculture--which includes forestry. Our policies are 
developed by individuals who are actively engaged in production and who 
know best the impact of laws and regulations.
    Texas is proud of its private property ownership heritage; but, we 
have considerable economic interests related to timber production on 
federal lands. The health and prosperity of many local communities and 
families rely on sound management practices of our natural resources. 
Additionally, private holdings are directly impacted by disease and 
pest conditions on adjacent federal timberlands.
    I am a ``hands on'' active manager of a 3,300 acre family tree farm 
of which I have had an interest for the past 60 years. From 1945 to 
1998 we practiced uneven age management which called for a select 
harvest with the remaining seed trees to regenerate the area.
    In the 60's we experienced a straight line wind storm which damaged 
250,000 board feet, which we were able to salvage. We left the 
remaining trees to naturally reseed the voided areas. That was a big 
mistake. From that experience, we learned that the under stocked stands 
quickly filled with undesirable herbaceous and wood plants which 
prevented natural regeneration.
    When the 1998 storm hit our tree farm and the adjoining Sabine 
National Forest, the damage suffered in the 60's was remembered. In 
order to avoid that mistake, we made a complete harvest of the severely 
damaged area and salvaged the remaining downed trees. This operation 
covered 900 acres with a salvage of 4,500,000 board feet which was 
completed by midsummer of that year.
    From 1998 through 2003, we reclaimed the devastated area by site 
prepping and planting with genetically improved seedlings. At this time 
I am happy to report that over 95 percent of the storm damage has been 
reclaimed and is contributing its part to the environment and success 
of the family tree farm.
    These sound management practices, which remove much of the dead 
timber before pest and disease can set in, and reseed adequately to 
prevent trashy undergrowth, contribute greatly to healthy woodlands. 
Similar practices need to be quickly implemented on federal lands when 
conditions warrant. Unfortunately, the procedures in place under the 
National Environmental Policy Act, and the willingness of some to 
further stifle the process, too often limit the opportunity to restore 
forest health in the best manner.
    Our Farm Bureau policy supports efforts to streamline and expedite 
the National Environmental Policy Act requirements to allow for the 
sound harvesting of mature, burned, dying, downed or dead timber. We 
believe the long term health and viability of our natural resources can 
best be achieved through these principles. Without these changes, our 
natural resources will continue to be wasted, opportunities for healthy 
forest regrowth will be lost, and the best interest of local 
communities and families will be sacrificed to the misguided policies 
of activists.
    Again, thank you Chairwoman McMorris, Representative Gohmert and 
members of the Task Force. We look forward to working with you to 
achieve positive results in improving the National Environmental Policy 
Act. I will do my best to answer any questions you may have.
    NOTE: Attachments to Mr. Davis' statement have been retained in the 
Committee's official files.
                                 ______
                                 
    Miss McMorris. Mr. England?

 STATEMENT OF STEPHEN M. ENGLAND, MANAGER OF MINED LANDS, TXI 
                   GEOLOGIC AND MINE SERVICES

    Mr. England. Chairwoman McMorris, Congressman Gohmert, 
thank you for inviting me to provide testimony today. I am here 
on behalf of the National Stone, Sand & Gravel Association and 
TXI Operations, LP.
    We appreciate the opportunity to provide comments to the 
Task Force on improving the National Environmental Policy Act.
    TXI believes the stated goal of the Task Force of ensuring 
Federal decisions are made in an appropriate and 
environmentally sound manner, rather than by litigation, is 
indeed necessary. TXI does not dispute the intent nor the value 
of NEPA to the decisionmaking process.
    In fact, in talking with the agencies and consultants 
(inaudible) permits, the NEPA process has provided guidance to 
review our applications in an orderly fashion; and that has 
helped in many instances. In fact, there are several positive 
aspects of NEPA that we could discuss; but time won't allow 
that today.
    Unfortunately, I have to address some of the other issues. 
NEPA, as it stands today, is a process that's been used to 
create regulatory pitfalls, stalling important projects.
    Much of what I do with TXI in recovery of the necessary 
construction aggregates is the reclamation portion and 
mitigation. To mining projects, TXI provides substantial 
opportunities to provide filtration and storage along rivers 
because these are full of deposits that we need to bring to 
market.
    Unfortunately, busy agencies have been forced to try and 
protect their NEPA documentation from legal challenges by 
producing piles of paperwork that exhaustively discuss every 
potential impact in hopes of creating a bullet-proof document. 
While the agencies may see this padding as a way of reducing 
litigation vulnerability, padding has a significant impact on 
the process and is a litigation pitfall all its own.
    Perhaps the most frustrating aspect we the regulated 
community faces is the fact that it's nearly impossible to plan 
for the permitting process. Wetlands permitting, for example, 
requires a NEPA process that has no clear end point. Too often, 
the NEPA process is turned upside down by a game of ``gotcha'' 
whereby the agencies complete their review only to be sued for 
failure to have considered some report or failure to respond in 
detail to some minor comment on an obscure point.
    A recommendation that we would make is the establishment of 
reasonable deadlines and tighter schedules that will provide 
significant benefits in terms of planning finality and avoiding 
delays while still protecting the environment. Data submitted 
at the last second should not be cause for the agency to have 
to reopen the entire NEPA process. Data of tangential 
importance not reviewed by agencies should not be cause for 
agencies to reopen the entire NEPA process. And I'll emphasize 
the tangential portion of it.
    The conclusion being: The tactics of those wishing to use 
NEPA to delay resource development are well-known. These 
tactics deplete important agency resources and siphon away 
precious tax dollars needed for conservation and stewardship of 
all our nation's resources.
    I think, for the most part, all of us who have come to this 
meeting today, having worked in offices, lived in homes, driven 
on roads all provided in large part by construction 
aggregates--it's not that we are oblivious to the need to 
protect the environment. It's just that the recovery of 
resources occurs oftentimes in areas that are sensitive to all 
of us.
    Thank you for the opportunity to comment on how NEPA has 
affected TXI's aggregate production in Texas, Oklahoma, and 
Louisiana.
    Miss McMorris. OK. Thank you. Very good.
    [The prepared statement of Mr. England follows:]

       Statement of Stephen M. England, Manager of Mined Lands, 
                           TXI Operations, LP

    TXI Operations, LP appreciates the opportunity to provide comments 
to the Task Force on Improving the National Environmental Policy Act 
(NEPA). TXI believes that the stated goal of the Task Force of ensuring 
that federal decisions are made in an appropriate, environmentally 
sound manner, rather than by litigation is indeed necessary. TXI does 
not dispute the intent and value of NEPA to the decision-making 
process. As NEPA stands, at times the process has been used to create a 
regulatory pit fall, stalling important projects. Moreover, the 
unfortunate reality is that delays in projects (such as wetlands 
permitting) due to unnecessarily lengthy NEPA reviews has a ``ripple 
effect'' on the cost of construction materials.
    Unfortunately, busy agencies have been forced to try and protect 
their NEPA documentation from legal challenges by producing piles of 
paperwork that exhaustively discuss every potential impact in hopes of 
creating a ``bullet-proof'' document. While the agencies may see this 
padding as a way of reducing litigation vulnerability, padding has a 
significant impact on the process and is a litigation pit fall all its 
own.
    Perhaps the biggest permitting frustration we the regulated 
community faces is the fact that it is nearly impossible to plan for 
permitting when there is a Federal decision required. Wetland 
permitting for example requires a NEPA process that has no clear end 
point. Too often, the NEPA process is turned upside down by a game of 
``gotcha'' whereby the agencies complete their review only to be sued 
for failure to have considered some report or for failure to respond in 
detail to a minor comment on an obscure point.
RECOMMENDATIONS FOR NEPA REFORM
    <bullet>  Establishing reasonable deadlines and tighter schedules 
will provide significant benefits in terms of planning finality and 
avoiding delays, while still protecting the environment.
    <bullet>  Data submitted at the last second should not cause the 
agency to have to reopen the entire NEPA process
    <bullet>  Data of tangential importance not reviewed by the 
agencies should not cause the agency to have to reopen the entire NEPA 
process
CONCLUSIONS
    The tactics of those wishing to use NEPA to delay resource 
development are well known. By asking for more discussion of peripheral 
issues, and then moving on to other theoretical concerns, each time the 
agency responds, does not protect the environment effectively. Under 
this approach, aggregate resource development opponents will always be 
able to point to some area of the record that is not discussed as much 
as other areas, and or claim that the failure to properly analyze one 
small issue is fatal to the overall process. These tactics deplete 
important agency resources and siphon away precious tax dollars needed 
for conservation and stewardship of all of the nations resources.
    Thank you for the opportunity to comment on how NEPA has effected 
TXI's aggregate production in the Texas, Oklahoma and Louisiana region. 
Should you have any questions or require further information from me 
please call me at (214) 502-0571. We look forward to working with the 
Committee in this effort.
                                 ______
                                 
    Miss McMorris. Mr. Shelton?

             STATEMENT OF LARRY SHELTON, TRUSTEE, 
              TEXAS COMMITTEE ON NATURAL RESOURCES

    Mr. Shelton. Good morning. I would like to offer my 
appreciation first to the invitation and opportunity to address 
the Task Force this morning.
    My name is Larry Shelton, and I have lived in Nacogdoches 
County for the past 25 years. I have been a member of the Texas 
Committee on Natural Resources, also known as TCONR, since 
1985. TCONR is a citizen conservation group that works on 
conservation and public health issues in both rural and urban 
areas.
    Today I'm here to offer my support for the National 
Environmental Policy Act in its entirety. I would like to talk 
about its benefits and my experience under NEPA, as well.
    Passage of NEPA in 1969, clearly marks a milestone in the 
long history of America's relationship to its national 
resources. NEPA acknowledges the paramount importance of this 
country's national resources and the inseparable connection 
between Americans and the environment. Additionally, NEPA 
addresses environmental management in a comprehensive and 
consistent way by establishing specific protocols for the 
guidance of Federal land and resource managers.
    To fully appreciate NEPA, one must recognize that it took 
this country nearly two centuries to finally pass legislation 
and create a single comprehensive policy for managing our 
environment. Prior to this, a lack of foresight in planning 
essentially created boom and bust cycles that frequently left 
in its wake a trail of economic depression and hardship, 
community deterioration, impairment of natural resources, and 
environmental degradation. So we can see from the past that the 
cost of no comprehensive environmental planning is also very 
high, as well.
    By the 1960s, the Nation was forced to acknowledge that we 
were facing an economic, human health, and sustainability 
crisis due to the lack of comprehensive environment planning 
and full assessment of environmental impacts.
    Clearly, we had a problem; and NEPA was the solution. NEPA 
calls for the comprehensive disclosure of environmental 
impacts. NEPA mandates consultation with state and local 
agencies and does provide a comprehensive forum in which to 
view environmental-significant actions in light of all current 
legislation.
    In essence, NEPA serves the same function as the rudder of 
a ship. It provides guidance and direction. NEPA brings a wide 
range of agencies, jurisdictions, and mandates under one 
umbrella so the Nation can make environmental decisions in 
intelligent and consistent ways.
    NEPA allows the process of public participation, and any 
attempt to repeal the rights afforded to the American citizen 
under NEPA is an affront to the democratic institution of this 
country and the belief in the citizens' ability to control 
their own destiny.
    NEPA is (inaudible) the participation of diverse agencies 
and the public. This cooperation leads to areas of agreement 
and also provides for resolving conflicts before final 
decisions are made. So sensibility at the start helps to reduce 
legal challenges to final decisions and helps to avoid the high 
cost of correcting poorly planned projects, hence the 
opportunity for NEPA to save money.
    In the past 20 years, working through the NEPA process, I 
have brought important resource information and experience to 
the planning table to supplement agency personnel and 
information, especially on national forest issues here in 
Texas.
    In my written testimony, I have included some of these NEPA 
experiences, but today I just have a few minutes to offer a 
brief example of how NEPA has been successful in East Texas.
    Following a tornado in the Davy Crockett National Forest 
last year, the Forest Service sought NEPA on the best way to 
reforest the area after the damaged timber was salvaged. By 
convening diverse groups and having meetings and working 
through the NEPA process, a proposal was made to naturally 
regenerate the area rather than replant seedlings.
    As a result of this proposal, all of the objectives of the 
area were met. The proposal resulted in the least impact to the 
environment and also resulted in savings of the tens of 
thousands of dollars in replanting costs.
    In terms of meeting its goal to reduce environmental 
impacts, reduce conflicts, and save money, NEPA has been 
extremely successful. NEPA has worked here in East Texas; and 
as a result, the vast majority of final decisions on the 
national forests in Texas are implemented without opposition or 
appeal.
    With regard to the Abitibi plant, we are all sympathetic to 
the hardships caused by unemployment; but we truly believe that 
(inaudible) are the result of a host of different issues, and 
NEPA should not be singled out for disproportionate scrutiny.
    Also, with regard to NEPA being cited for--cited as 
(inaudible) to the harvest of timber in the national forests, I 
would like to address that. Timber harvest objectives are 
established in the National Forest Management Plan which is 
mandated by the National Forest Management Act which in turn 
calls for the (inaudible) resources to meet the various needs 
and values of the country. So NEPA does not set specific timber 
value--timber harvest levels.
    Also, to put things in perspective, the National----
    Miss McMorris. I need to ask you to wrap up, Mr. Shelton.
    Mr. Shelton. OK. Can I have 30 seconds?
    Miss McMorris. All right.
    Mr. Shelton. The national forest constitutes only 5 percent 
of the timberland in East Texas and contributes to only about 3 
percent of the timber mix for a harvest year.
    The timber industry is, in fact, self-sustaining.
    (Inaudible) national forest. The industry no longer depends 
on the national forest timber harvest ability to be there 
because it is (inaudible).
    So in essence, only 5 percent is national forest land and 
85 percent of those are timber harvesting; so in all, 98 
percent of East Texas forest lands are open to harvesting. And 
NEPA has very little impact, as a result, on the timber 
industry.
    I strongly urge the Task Force on Improving National 
Environmental Policy Act to make no changes to NEPA or to the 
regulations promulgated by the Council on Environmental Quality 
and other Federal agencies who implemented NEPA.
    Thank you.
    Miss McMorris. Thank you.
    [The prepared statement of Mr. Shelton follows:]

                Statement of Larry D. Shelton, Trustee, 
              Texas Committee on Natural Resources (TCONR)

    My name is Larry D. Shelton and I live at 15449 FM 1878 
Nacogdoches, TX. 75961. I have lived in Nacogdoches County continuously 
since 1979. I have been the owner and operator of Osage Woodworks, a 
custom woodworking business, since 1983. I have been a member of the 
Texas Committee on Natural Resources (TCONR) since 1985 and have served 
on the board of trustees since 1994. TCONR is a citizen conservation 
group that works on conservation and public health issues in both rural 
and urban areas of Texas and the United States. Since 1997, TCONR has 
been the state affiliate of the National Wildlife Federation.
    TCONR very much appreciates your inviting me to be a witness at 
this hearing. In my testimony today I offer clear and unambiguous 
support for retaining the full integrity of the National Environmental 
Policy Act (NEPA) and to urge this Committee to make NO changes to the 
substance or intent of NEPA and none to the regulations that have 
subsequently been promulgated to implement NEPA.
    I will discuss some of the benefits that this country has reaped as 
a result of the passage of NEPA and will share with this committee my 
personal experience with NEPA over the past 20 years.
    The passage of NEPA in 1969 clearly marks a milestone in the long 
history of America's relationship to its natural resources. NEPA 
acknowledges the paramount importance of this country's natural 
resources and the inseparable connection between Americans and their 
environment. Additionally NEPA addresses environmental management in a 
comprehensive and consistent way by establishing specific protocols for 
the guidance of federal land and resource managers as well as 
interested and affected parties and user groups of federal lands and 
resources.
    To fully appreciate the logic and intent of NEPA one must first 
look at the history of America's relationship with the abundant natural 
resources that constitute our environment. As a young nation our first 
century was marked by phenomenal expansion and an insatiable 
consumption of natural resources that at the time were thought to be 
inexhaustible. Our forefathers cleared the land for crops, often 
burning or otherwise destroying the virgin forests. In ignorance we 
depleted the soil through unsustainable farming practices, only to move 
on when the land would no longer produce. When forests were harvested, 
it was for quick profit without regard for sustainability, regeneration 
or maintenance of native wildlife habitat. Wildlife was slaughtered, 
often to the edge of extinction. The common result of this thoughtless 
exploitation of resources was a ``boom and bust'' cycle that frequently 
left in its wake a trail of economic depression and hardship, community 
deterioration, impairment of natural resources, and environmental 
degradation.
    Advances in technology and industry through the 1950's further 
enabled this country to exploit and modify our resources to the point 
that environmental systems were becoming dysfunctional. The cumulative 
impacts of chemicals, pesticides and other pollutants were beginning to 
negatively affect human lives and livelihoods. Loss of habitat was 
threatening the continued existence of much wildlife, including popular 
game species. Extensive dam building and water diversions had 
significantly altered the natural dynamics of the nation's watersheds. 
By the 1960's the nation was forced to acknowledge that we were facing 
economic, human health and sustainability crises due to the lack of 
comprehensive environmental planning and full assessment of 
environmental impacts and potential alternatives.
    NEPA is the result of the courage and diligence of those willing to 
recognize the lessons learned from our past mistakes and to commit to 
preventing the repetition of those mistakes. I would like to share with 
you a very good summary of the importance of NEPA that was provided in 
2003 by the General Counsel for the Council on Environmental Quality:
        At its heart, the NEPA process is grounded on certain basic 
        beliefs about the relationship between citizens and their 
        government. Those core beliefs include an assumption that 
        citizens should actively participate in their government, that 
        information matters, that the environmental impact assessment 
        process should be implemented with both common sense and 
        imagination, and that there is much about the world that we do 
        not yet understand. NEPA also rests on a belief that the social 
        and economic welfare of human beings is intimately 
        interconnected with the environment. [Dinah Bear, 43 Nat. 
        Resources J. 931, 932 (2003)
    Due to increased population and development pressures, the 
challenges we face today in terms of managing our environment and 
resources to benefit people over the long-term are perhaps even more 
imperative than they were at the time of the original passage of the 
Act. NEPA acknowledges the significance of environmental management and 
provides the guidance to carry it out.
    The significance of NEPA is paramount in that it calls for the 
comprehensive disclosure and full accounting of environmental impacts 
associated with federally funded projects and other actions requiring a 
federal permit. NEPA establishes a process wherein the public has the 
right to offer comments prior to final decisions on environmentally 
significant actions. NEPA mandates consultation with relevant federal, 
state, and local agencies and provides a comprehensive forum in which 
to view environmentally significant actions in the light of all current 
environmental legislation. NEPA calls for the development of multiple 
alternatives, including the option of ``No Action''. In some regards 
the passage of NEPA constitutes a ``bill of rights'' allowing for the 
American citizen to engage in the democratic processes of this country 
regarding actions that have significant environmental impacts. These 
impacts relate to the physical environment, public health, social, 
cultural, and personal values, impacts on biotic communities, and 
economic repercussions.
    Any attempt to repeal the rights afforded to the American citizen 
under NEPA is an affront to the democratic institutions of this country 
and further reduces the democratic principles Americans support and 
live by and citizens ability to control their own destiny. The many 
provisions of NEPA are inseparably linked. To preserve the integrity of 
the legislation it must be preserved in its entirety.

NEPA Ensures Disclosure of Impacts and Alternatives
    NEPA is about creating an informed public by broadly sharing 
important information that prior to NEPA would have been restricted to 
a handful of federal bureaucrats or might never have been developed or 
analyzed at all. NEPA calls for the full disclosure of environmental 
impacts associated with federally funded and federally permitted 
projects. The many actions of the federal government often result in 
varied impacts not only to the physical environment, but to the economy 
and on citizen's personal lives as well. It is through the development 
and public distribution of environmental impact statements that the 
citizen's ``right to know'' is maintained.
    Environmental impact statements and environmental assessments 
provide the public with information on the impacts of the proposed 
action, along with the cumulative impacts of that action when 
considered together with other related or similar actions. They also 
must set out a reasonable range of alternative actions for public 
consideration. The development of alternatives lies at the heart of 
NEPA. For the average American, this consideration of alternatives is a 
vital force toward lower-impact and more sensitive project design. Only 
when the population has ready access to accurate information can 
members of the public engage fully and competently in the democratic 
processes of this country. The current federal requirements for 
reporting impacts associated with the physical environment gives the 
citizen information that may reveal additional impacts to one's health, 
finances, property and community. We urge you not to deny citizens the 
knowledge they need to provide meaningful input in the decisions that 
affect their lives.

NEPA promotes the democratic process
    NEPA allows citizens the right to participate directly in the 
processes that result in decisions that affect their environment and 
subsequently impact their lives. Whereas our country is founded on the 
principles of democracy including the involvement of the public in 
shaping the laws and decisions of government, NEPA directly empowers 
the citizen to participate in the democratic process. Americans cherish 
their freedoms and rights afforded under the laws of this land. 
Alterations that have been proposed to NEPA would relinquish some of 
those rights

NEPA is a forum
    NEPA provides a framework to view the environmental impacts and 
significance of federally permitted projects within the context of the 
full spectrum of laws and mandates applicable to that project. Through 
the NEPA process a project is analyzed in the light of all natural 
resource laws including those related to water, air, wildlife, public 
health, sustainability and land and resource management. Such a forum 
allows for truly comprehensive disclosure of impacts and the 
development of alternative actions intended to minimize or mitigate 
those impacts.

NEPA promotes informed decisions that avoid costly mistakes
    NEPA does not dictate a specific final decision about a project, 
but rather guarantees informed decisions. NEPA has been attacked as 
leading to delay and higher costs. While the NEPA process may entail 
some additional delay and additional cost, the better decisions that 
result save time and money in the long run. Bad decisions can be made 
quickly, and initially they are cheap, but spending a little more time 
and money in making a good decision rather than to rushing to a bad one 
can really pay off. The costs and delays of living with bad decisions 
or of trying to fix them after-the-fact are vastly greater than any 
costs incurred in complying with NEPA.

NEPA has been a success
    NEPA has been a tremendous success. It works. It has provided 
innumerable benefits to the public by preventing and reducing 
environmental impacts that also save the federal government money. 
Because NEPA calls for a comprehensive disclosure of the impacts 
related to a project as well as public participation we often see a 
well-reasoned decision making process emerge from the consensus of 
interdisciplinary management teams and affected publics and user 
groups. Such cooperation at the planning stages of projects works well 
toward finding areas of agreement and for resolving conflicts before 
final decisions are made. Such consensus building at the start helps to 
reduce legal challenges to final decisions and to avoid the high cost 
of correcting poorly-planned projects.
    Public participation can be a valuable service to government 
agencies that lack sufficient resources and insight to fully identify 
and articulate all issues and concerns. The downsizing of government 
agencies has in many instances left those agencies understaffed and 
overworked to the point that full development of issues and concerns is 
not possible without public participation. And it is the full 
development of issues, concerns and information that leads to consensus 
building and conflict resolution. NEPA equates to fairness by offering 
a ``level playing field'' for those groups competing for the same 
resources. It helps us manage our natural resources and the impacts 
associated with using our natural resources in a way that provides 
enduring benefits to people over the long-term.

My participation in NEPA processes
    As a member of TCONR over the past 20 years I have engaged 
extensively in the NEPA process at many levels. My most persistent work 
has been with the National Forests and Grasslands in Texas (NFGTX). I 
provided input to two Land and Resource Management Plan (LRMP) 
revisions and one amendment. I have worked with planning teams 
developing management plans for three wilderness areas in Texas as well 
as numerous other individual project plans. After these 20 years of 
working closely with federal resource management issues I would claim 
NEPA to be a rousing success. Coordination between federal, state, and 
local agencies and affected user groups has led to many projects being 
fully developed and implemented to the satisfaction of all parties 
involved. As a representative of TCONR I have often brought important 
resource information and experience to the planning table to supplement 
agency personnel and information. The diligent work of all involved 
parties has resolved conflicts and resulted in a satisfactory decision 
that was ultimately implemented.

NEPA successes I've witnessed
    The following are but two of many examples of NEPA success stories 
that I have participated in, beginning with a recent episode from the 
Davy Crockett National Forest. A tornado had damaged a portion of the 
forest, precipitating a discussion on the best way to salvage damaged 
timber and then regenerate the area to forest. Through the NEPA process 
a consensus was reached that satisfied the needs for both salvage and 
regeneration in a way that was satisfactory to most agency personnel 
and to participating user groups. Rather than implementing expensive 
site preparation and replanting of the site, the decision was made to 
allow natural regeneration after the salvage operation was finished. 
Natural regeneration of the site will result in savings to the federal 
government of tens of thousands of dollars in replanting costs--a 
result driven by NEPA.
    In a case on the Sabine National Forest, timber harvesting was 
planned for portions of a recognized sensitive area. TCONR and other 
citizen groups expressed concern that high-impact logging would occur 
in the primary zone of a designated natural heritage site. A scoping 
meeting and field trip including agency personnel and user groups was 
held to assess the situation. With only this one-day meeting, a 
consensus was reached that satisfied all parties. By slightly modifying 
the sale boundary, to avoid logging the primary protected area and 
allowing for thinning in the secondary buffer area, all parties 
involved felt that their objectives were satisfactorily met and the 
project was greatly improved. These are but two of many such NEPA 
engagements in which TCONR has been involved that resulted in a 
satisfactory consensus, decision and implementation.
    Attached to my testimony are three other NEPA success stories that 
were compiled by other TCONR members. If you have questions about those 
stories, I would be happy to put you in touch with persons who worked 
with those projects.

NEPA has been misrepresented
    Despite the many successes some individuals have sought to distort 
NEPA's proud record of forging reasoned decisions based on the full 
spectrum of information, public participation and implementation 
options. One such example is the case of the Abitibi-Consolidated owned 
paper mill in Lufkin, Texas.
    NEPA has been attacked as one of the cause of the paper mill 
impasse when in fact NEPA was not relevant to the decision-making 
process. The decisions about Abitibi were actually the state's 
obligations under the mandates of the federal Clean Water Act that 
preclude the downgrade of water quality standards. NPDES permits, such 
as Abitibi was seeking, are exempted from NEPA.
    Because there is misunderstanding about the role of NEPA in the 
Abitibi case, I think it is appropriate to take a few paragraphs to 
describe what actually happened. As Abitibi-Consolidated made clear in 
its public statements when the plant was closed in 2003, this case 
involves a difficult suite of issues including economics, public 
health, pollution of public waterways and multiple jurisdictions. In 
newspaper accounts at the time, Abitibi cited weak markets for 
newsprint, the weaker market due to the technology industries 
``bubble'' bursting, continuing after-effects of the September 11, 2001 
attack on the World Trade Center, a stagnant market dynamic, and high 
energy costs as among the reasons for the closing. A spokeswoman for 
Abitibi specifically stated that the shutdown was unrelated to what the 
company had invested in environment-related projects at the mill, 
saying that they had met their environmental challenges. Critics have 
linked NEPA to the increase in costs of energy, but there are a large 
number of reasons for increase in energy costs. Any impact NEPA would 
have had, if any, on the plant closing would be minuscule compared to 
other factors, such as increased global competition for limited energy 
supplies and weather-related impacts like hurricane damage.
    The paper mill has a decades-long history of discharging industrial 
effluent into the Angelina River which currently flows into the Sam 
Rayburn Reservoir. This reservoir is a regional recreation and 
municipal water supply resource for a multi-county area. The effluent 
discharge flowing into Sam Rayburn Reservoir has serious public health 
implications. Warnings have already been posted at the reservoir 
advising limited fish consumption due to mercury contamination, 
probably from atmospheric mercury fallout. There is pending litigation 
regarding alleged dioxin contamination in the reservoir. Sources of 
pollutants in the reservoir, which the City of Lufkin plans to use as a 
municipal water supply, are very controversial.
    Lufkin's initial plan was to place a water intake at the upper 
(north) end of the reservoir, close to the city, where the Angelina 
River enters. The city has made subsequent plans to move the water 
intake further south on the reservoir, possibly in an attempt to avoid 
the lower quality water resulting from the industrial effluent 
discharged from the paper mill. The placement of the water intake 
further south in the reservoir increases the distance to the city 
itself, resulting in more pipeline distance (at greater cost), a longer 
cleared right of way and more energy consumed to pump the water to the 
city.
    Due to the new water intake location the pipeline right of way is 
now proposed to cross the Angelina National Forest resulting in the 
permanent loss of federal forest as the land is converted to a cleared 
right of way. This forest land currently provides forest products, vast 
public recreational opportunities, jobs to the forest products industry 
and critical habitat for the endangered red-cockaded woodpecker.
    A quick enumeration of the costs and benefits on both sides of the 
issue reveals the inequity involved in the discharge of pollutants that 
degrade water quality the mill's proposal to increase the discharge of 
industrial effluent. The debate over the continued operation of the 
paper mill at Lufkin has been misconstrued as a simple choice between 
local jobs and unnecessary government regulation. This perception is 
simply untrue. It was not NEPA that caused the closing of the Abitibi 
plant, but rather the overall economic situation concerning the paper 
mill.

Conclusion
    As the world's population increases with each passing year, more 
pressure is placed upon natural resources and the environment that 
sustains us. Polls conducted over many years consistently reveal that 
the great majority of Americans are strongly aware of our important 
relationship with the environment and that they support conservative 
resource management. America is considered the world leader in terms of 
progressive environmental policies enacted to conserve resources, guard 
public health, promote sustainability and reduce unnecessary impacts 
during resource management and extraction. This honor has not been 
achieved by chance but through the conscientious and far-sighted 
efforts of dedicated leaders. This honor is the result of the passage 
of the National Environmental Policy Act and over thirty-five years of 
sound, competent environmental management carried out in a 
comprehensive and transparent fashion.
    NEPA has been a tremendously successful and popular piece of 
legislation for a number of reasons. NEPA's authors recognized the 
complex and comprehensive relationship that modern humans have with the 
environment and penned its provisions accordingly--the Act calls for 
full and in-depth analysis of potential impacts of proposed actions. 
NEPA's authors sought to uphold the democratic spirit of government 
that has shaped so many of our laws--the Act allows for full 
interagency and interdisciplinary participation as well as that of 
interested and affected public and private organizations and 
individuals. NEPA's comprehensive and inclusive approach to planning as 
well as the development of different alternatives provides the best 
chances for final decisions to be implemented with the least amount of 
controversy--the vast majority of final decisions on the National 
Forests in Texas are implemented without opposition or appeal.
    Considering the ongoing high rates of success enjoyed by the NEPA 
process, the enduring public support for NEPA over the past thirty 
years and the continued relevance that NEPA holds for the ongoing 
resource and public health challenges we will be facing for many 
decades to come, NEPA is as important now as ever.
    NEPA has not only served as a stellar domestic policy but has 
earned for America prestige and respect at the global level. As 
legislation goes, the text of NEPA is not long, but each of its 
provisions is important and essential to the integrity of the Act as a 
whole.
    In its current form, NEPA achieves its intended purpose of 
providing comprehensive environmental and resource policy guidance that 
provides the greatest benefit to the most people without causing 
unnecessary impacts or jeopardizing public safety and health. As a 
representative of TCONR and a long-time participant in resource 
planning through NEPA, I strongly urge the Task Force on Improving 
National Environmental Policy Act to make NO changes to NEPA or to the 
regulations promulgated by the Council on Environmental Quality and 
other federal agencies to implement NEPA.
    Again, thank you for the opportunity to testify this morning.
                                 ______
                                 
                    ADDITIONAL NEPA SUCCESS STORIES

Sims Bayou Federal Flood Control Project--Complied by Evelyn Merz
    Beginning in 1991, the Houston Regional Group of the Sierra Club 
questioned the proposed design for the Sims Bayou Federal Flood Control 
Project contained in the EIS prepared by the U.S. Army Corps of 
Engineers. Local residents quickly formed the Sims Bayou Coalition 
(SBC) which mobilized opposition to the Corps's plan to channelize and 
concrete Sims Bayou.
    Under the NEPA process, the Coalition was able to counter the Corps 
design with an alternative that relied primarily upon detention instead 
of channelization. Although the Coalition alternative has drafted was 
not accepted by the Corps, meetings held between the Coalition and its 
supporters, the Corps, the Harris County Flood Control District, and 
elected officials from the county and Congress led to an agreement for 
a vastly improved modification of the original Corps plan in 1992.
    In the modified plan, the rigid trapezoidal channel shape was 
replaced with a flood bench having gently sloping side, most of the 
concrete was removed and replaced with vegetated slopes over cellular 
mats, and trees became a part of the design specifications. The 
residents and representatives from the Corps and Harris County Flood 
Control walked sections of the project together to determine where the 
orientation of the channel excavation could be changed to avoid 
disturbing valuable trees and mapping trees to be saved in place or 
marking trees to be moved.
    As of 2005, the Sims Bayou Project is still under construction and 
is often used by the Harris County Flood Control District (the local 
project sponsor) as an example of its new approach to a ``greener'' 
form of flood control. The Coalition and other residents benefited from 
a design that allowed for Sims Bayou to be a green ribbon through its 
neighborhoods instead of a concrete ditch and offered an opportunity to 
preserve and restore habitat. The NEPA process allowed all parties to 
compromise on an acceptable flood control design for Sims Bayou.

Wallisville Reservoir--Compiled by Evelyn Merz
    The Wallisville Reservoir project is in Liberty County near the 
mouth of the Trinity River as it flows into Galveston Bay. Construction 
began in 1966 and halted in 1974 under an injunction. The Corps of 
Engineers had not prepared an adequate EIS.
    Through following the NEPA process, a 20,000-acre project which 
would have inflicted major damage upon the Galveston Bayou estuary 
system was scaled back to a salt-water barrier to protect agricultural 
water intakes, which was the only valid reason for proposing the 
project. Water rights sought by the City of Houston through 
construction of the project were satisfied by the construction of the 
salt water barrier. The saltwater barrier allowed downstream flows of 
nutrients which would have been blocked by the original design. The 
reduction in size and depth of the reservoir allowed the preservation 
of the Lake Charlotte cypress swamp area.

Lake Jackson Golf Course--Compiled by Brandt Mannchen
    From 1995 to 2000 the Houston Regional Group of the Sierra Club, 
the Houston Audubon Society, and an individual participated in the 
National Environmental Policy Act (NEPA) process; U.S. Army Corps of 
Engineers (ACOE) Section 10/404 permit process; and a lawsuit regarding 
noncompliance with NEPA for ACOE Permit, No. 20271.
    The proposal originally would have created a municipal golf course 
on 400 acres, many of which were wetlands. Due to concerns about 
wetland impacts the golf course proposal was reduced to approximately 
209 acres. Additional mitigation conducted during the NEPA process 
reduced impacts to 154 acres, with about 54 acres remaining 
undisturbed.
    The lawsuit was filed because the ACOE did not analyze the 
cumulative environmental impacts that the golf course would have on 
Columbia Bottomland forests and neo-tropical migrant birds in its 
environmental assessment. The federal judge ruled that the ACOE must 
assess cumulative effects due to construction of the golf course. The 
ACOE did this and the case was dismissed in 2000.
                                 ______
                                 

          Addendum to Testimony Presented by Larry D. Shelton

    Please accept these additional comments relative to my original 
written TESTIMONY submitted July 20, 2005, and my ORAL TESTIMONY 
presented on July 23, 2005, in Nacogdoches, Texas. I request that they 
be submitted into the record of the hearing.
    While the hearing was to consider the ``Role of NEPA in the 
Southern States'' it was apparent that much of the testimony presented 
concerned situations where NEPA had no bearing or direct impact. I cite 
some examples below.

Oil and gas drilling
    Many comments were made concerning high energy costs. Delays caused 
by NEPA were cited as the cause.
    Statements presented by Texas Railroad Commissioner Victor Carrillo 
revealed that Texas in fact has very little federal land and that as a 
result very little oil and gas drilling in Texas is subject to the NEPA 
process.
    Mr. Carrillo further explained that the state had streamlined the 
permitting process such that a delay of one to five days for a drilling 
permit was now reduced in most cases to a single day. Clearly, NEPA is 
not causing serious delays in oil and gas drilling in Texas.
    The committee should also recognize that oil and gas prices are set 
on the world market and therefore local increases in production do not 
significantly affect prices as a whole.
    The argument presented was that making changes to NEPA would 
expedite oil and gas production and therefore lower the price of 
energy. We would hope that the committee recognizes the fallacy of this 
argument. In fact oil and gas reserves are finite and as reserves 
dwindle the price will rise based on simple supply and demand 
principles. Expedited production simply reduces reserves faster. The 
real reason for escalation in energy costs is that global demand is 
continually increasing at the same time that reserves are being 
depleted. Simple logic tells us that increasing demand on finite 
reserves will result in rising prices until fossil fuels are fully 
depleted or other energy sources become available.
    In summary, testimony presented on July 23, 2005 in fact verified 
that NEPA has very minimal impact on the length of time needed to 
obtain a drilling permit in Texas. Oil and gas prices are set on the 
global market where the United States is a minor producer in comparison 
to many other countries.

Forestry-related issues
    Testimony was presented suggesting that NEPA has had a significant 
impact on forestry related issues. In fact, federally-managed National 
Forest land in Texas makes up a very small portion of the overall 
commercial timberland area--only about 6% of the commercial timberland 
base is federally owned. Additionally, National Forests contribute only 
about 3% of the overall mix of forest products harvested in Texas. It 
should also be noted that of the National Forest land in Texas, 85% is 
managed for the growth and harvest of pine timber, which means that 
less than 1% of Texas commercial timber land is taken out of the 
productive timber base. In reality, the timber industry is able to meet 
their needs independently of the National Forests due to the extensive 
industrial and private land base currently being managed for timber 
harvest. NEPA does NOT place any restrictions on these lands.
    Testimony was presented concerning the large blow-down of timber on 
the Sabine National Forest in 1997. This testimony mentioned a special 
arrangement made with the Council on Environmental Quality to expedite 
the salvage of the downed timber. The record shows that the salvage 
operation was carried out in an expedited manner due to this 
arrangement and that the current regulations allow for such exceptional 
circumstances. Testimony presented by Mr. Davis said that ``the salvage 
was carried out successfully.'' This episode strongly suggests that the 
current situation is working.
    It is worthy of mention that mistakes were made in terms of 
protecting federal resources apparently due to the wide-spread nature 
of the operation and insufficient oversight from Forest Service 
personnel.
    Specifically, a Special Management Area that was NOT supposed to be 
logged was cut over on a Sunday under what appeared to be suspicious 
circumstances. An additional important point: a Forest Service 
hydrologist brought in from another region to provide expertise for the 
salvage effort wrote a letter clearly stating for the Forest Service 
record that in his professional opinion stream protection as a whole 
was NOT adequate during the salvage operation. These lapses resulted 
from the expedited ``arrangements'' already made under NEPA. We oppose 
any changes to NEPA that would make failure to adequately protect 
resources as mandated a more common occurrence.

Water Development
    Testimony was also heard concerning water development and the 
construction of Marvin Nichols Reservoir on the Sulfur River. From the 
testimony it was unclear as to specifically how NEPA was influencing 
that project.
    Part of this testimony included a reference to mitigation that 
would amount to a 10 to 1 compensation rate of mitigated land to 
inundated land. In 1990 biologists with Texas Parks and Wildlife 
Department and the U.S. Fish and Wildlife Service estimated that 
mitigation for Marvin Nichols could range between 163,620 and 648,578 
acres, depending on intensity of management. This would be a ratio of 
2.3 to 1 for the smaller number of acres and 9 to 1 for the larger 
number. Proponents of the reservoir are saying that they have done more 
site-specific studies and are using mitigation cost estimates that 
indicate roughly a 2 to 1 ratio for Marvin Nichols. Mitigation formulas 
are admittedly complex but the suggestion that the entire area affected 
by the lake would be subjected to the 10 to 1 standard is exaggerated 
by any estimate. At best, only a portion of the site would be subject 
to the highest rate; other portions of the site would be subject to a 
lower rate or to no mitigation at all. In reality, the 600,000 acre 
mitigation figure cited is so unlikely that people close to the 
reservoir issue, neither proponents nor opponents, routinely use it.
    The construction of Marvin Nichols is a state project rather than a 
federal one. Several other issues figure prominently in the challenges 
that the proposed lake faces. Among those are the huge impacts to the 
agricultural and timber economy of Northeast Texas, the length and 
expense of the pipeline to the nearest market for water, and the fact 
that the lake would be built to serve the distant Dallas-Fort Worth 
area that has the highest per capita water consumption rates in the 
state. The Region C Water Planning Group, the official water planning 
group established by the Texas Legislature, has shown that there is 
almost twice as much water available from already-existing reservoirs 
as will be needed in the Dallas-Fort Worth-North Texas area in the year 
2060. The fairness issue is raised when one area is expected to give up 
productive lands to meet the water needs of other areas with 
exceptionally high water consumption rates. Again, we urge the 
Committee to be diligent in separating state from federal issues and in 
deciding the actual degree of NEPA influence, if any.

Abitibi Consolidated paper mill
    The spokeswoman for Abitibi presented testimony that the mill's 
primary issue was securing a long term supply of lower priced energy. 
As mentioned above it is very unlikely that world energy prices will 
significantly decrease considering the ever increasing demand and the 
finite nature of oil and gas reserves. The Committee must exercise 
great care in weighing the relative impacts of diverse issues on the 
price of energy, especially NEPA and the far greater global energy 
market conditions.
    Abitibi also faces significant water quality issues at the state 
and local level that are minimally influenced by NEPA. At issue is the 
discharge of industrial effluent into the Angelina River and in turn 
the Sam Rayburn Reservoir. This Reservoir is a regional recreation and 
municipal water supply resource. The right of self determination rises 
to the forefront here as local citizens see the water they use for 
recreation and water supply polluted. Those of us here in the counties 
surrounding Sam Rayburn do not want to see any changes in federal 
statutes that would make it easier for local industries to discharge 
toxins into our drinking water. Nor should NEPA be cited as the main 
impediment to the mills operation when the water quality issue is the 
real problem facing our communities.
    The Committee faces a huge challenge in sorting through the diverse 
testimony and written comments that will be generated as a result of 
the Task Force's review of NEPA. I strongly urge the members to 
exercise the utmost caution in segregating actual NEPA issues from 
state, local and even larger global issues. NEPA should not be used as 
a scapegoat for unrelated issues.
    I would also urge the Committee to maintain its bi-partisan mission 
to objectively look at the Role of NEPA. At the Nacogdoches hearing, 
the representatives of southern industrial America were lined up both 
physically and symbolically in close proximity to members of the 
Committee. The industrial representatives (including Texas Railroad 
Commissioner Carillo) argued to the last witness that economic 
considerations should be elevated in priority such that their 
respective industries may have quicker and wider access to the natural 
resources of this country.
    I wish to make my belief clear that resource consumption is 
necessary and a part of all of our lives.
    It is the responsibility of the Resources Committee to make the 
distinction between the original intent of NEPA and this clear lobbying 
effort of American industries to prioritize their personal economics 
over all other considerations in resource management decisions. NEPA 
mandates that all aspects of resource management be considered 
including the diverse personal values represented in resources and the 
impacts associated with resource utilization, both for today's 
Americans and for future generations. There is a strong appearance of 
bias in this NEPA review process from both the disproportionately large 
representation of industry on the witness lists and the uniform 
assertion by those witnesses that NEPA should be changed to allow 
easier and wider access to resources to increase their profitability. 
There also appears to be a discrepancy between the mission of the Task 
Force to ``improve'' NEPA and the apparent agenda of industrial 
representative witnesses to weaken its provisions meant to insure 
strong environmental protection and equity through reduced impacts and 
comprehensive consideration of resource values.
    Again I urge you to make no changes to NEPA that would weaken 
environmental and human health protection. Additionally a full range of 
resource values should be considered without prioritizing economics 
over the others.
                                 ______
                                 
    Miss McMorris. Ms. Nichols?

         STATEMENT OF SANDRA NICHOLS, ATTORNEY WILDLAW

    Ms. Nichols. Hi. I'm Sandra Nichols. I'm with WildLaw, an 
environmental nonprofit law firm. I would like to thank 
Chairwoman McMorris and Representative Gohmert for this 
opportunity to talk about this.
    My organization, WildLaw, has reviewed over 5,000 NEPA 
documents, including several hundred full Environmental Impact 
Statements. We work throughout the Southeast and work on a 
range of environmental issues, but we focus on national 
forests; so I would like to share with you some of our 
experiences working with the national forests in Alabama, 
Mississippi, and Louisiana.
    I would like to begin by saying we need to keep this in 
perspective. The vast majority of projects subject to NEPA 
proceed without any problems, and there's no controversy or 
litigation. In fact, changing laws results in more litigation. 
When the law changes all those (inaudible) are uncertain, and 
that's when litigation and challenges result.
    In fact, NEPA is already a flexible law. The standard of 
how much information needs to be collected is a reasonable 
standard. There's no page limit--page requirements for 
Environmental Impact Statements.
    When implemented correctly, NEPA makes projects better. 
When Federal agents use the law in the spirit in which it was 
intended, conflicts and potential problems are resolved early 
in the planning stages. The law allows identification of 
environmental, social, economic, and historical concerns early 
on; and they can be resolved before the project--before there's 
too much invested in the project.
    NEPA does not stop projects. Problems with projects stop 
projects.
    We all know from--hearing from across the country the great 
controversies caused by fire danger in the national forests. 
The problem is that not only do fires threaten public 
resources, our national forests; but often communities that are 
part of the national forests are endangered by this risk, as 
well.
    Well, right next door, in Louisiana, they have a fire 
danger problem; but we don't hear about it on the news. The 
Forest Service in Louisiana has used NEPA to do exemplary 
planning and involved the community, and there's no objection 
to their plans. The way that they have accomplished this is by 
keeping the public informed.
    They send out scoping notices with details about what 
they're planning to do, and they do thorough Environmental 
Assessments with detailed site-specific information, photos, 
and they--they inform the public so that the public is aware in 
advance, and they collaborate. Now, NEPA does not require 
consensus. It only requires collaboration.
    The (inaudible) in the Kisatchie National Forest has won an 
award for their (inaudible) based on this process.
    Another example of a successful implementation of NEPA is 
from Alabama. The Conecuh National Forest--I've heard mention 
of the longleaf pine. That's one of the rarest ecosystems in 
the country. And up until the early '90s, the longleaf was 
being systematically destroyed by (inaudible).
    There was a change in personnel in the agency in Alabama 
and in--and the new personnel decided that they wanted to 
restore the historical longleaf and wire grass ecosystem, and 
they went about it by fully embracing the spirit of NEPA.
    NEPA encourages taking a holistic view of resources and 
gathering full information in order to make informed decisions. 
One complaint about NEPA is that it requires a lot of 
procedure.
    Well, the personnel at Conecuh found a way to follow NEPA 
without bogging down their work. They did one large 
comprehensive Environmental Impact Statement on the whole 
restoration project. They included all the stakeholders from 
the area, and they looked at all the resources in the forest.
    Now, it did take them some time. For the past five years, 
they've been implementing their plan out there, working on the 
ground; and all the stakeholders, including the loggers and all 
the different (inaudible) in the community are happy with the 
results.
    NEPA resolves conflicts. It allows different perspectives 
(inaudible) potential problems to be revealed early.
    Citizens sue when they're surprised. If they're not 
informed or if there's a problem with the project, that's when 
they report it. And the courts--courts aren't biased toward 
citizen groups. They only stop projects that are actually bad 
projects.
    Because of the great attitude toward NEPA in the three 
states that we work in, there's no--there's currently no 
litigation in Alabama, Mississippi, or Louisiana national 
forest areas on NEPA issues. In fact, the Forest Service 
actually does a great job of collaborating with citizen groups 
in these three states.
    In conclusion, I would like to say if not for NEPA there 
would be a lot more litigation. I agree that changes can be 
made, but they should be changes in the implementation but not 
the law.
    When NEPA--when agency personnel implement NEPA according 
to the spirit it was intended, if they're motivated to do so, 
and they're trained to do so, NEPA results in better projects. 
Thank you very much.
    [The prepared statement of Ms. Nichols follows:]

          Statement of Sandra Nichols, Staff Attorney, WildLaw

    The National Environmental Policy Act <SUP>1</SUP> (NEPA) is 
perhaps the shortest federal environmental statute. Yet its benefits 
are incalculable. In countless cases, NEPA procedure has enabled the 
discovery of potential problems early enough to resolve them before 
they became obstacles to the completion of federal projects. This small 
act's purpose is to require federal agencies to consider the 
environmental consequences of major federal actions; it is aimed at the 
federal government and not at individuals or the states. NEPA directs 
that all federal agencies must include in all ``major Federal actions 
significantly affecting the quality of the human environment, a 
detailed statement by the responsible official on...the environmental 
impact of the proposed project....'' <SUP>2</SUP> This requirement is 
the genesis of what is commonly known as the environmental impact 
statement (EIS), and the cases that deal with whether a federal agency 
must prepare an EIS on a particular project are legion.
---------------------------------------------------------------------------
    \1\ 42 U.S.C. '' 4321 et seq.
    \2\ 42 U.S.C. ' 4432(C)(i).
---------------------------------------------------------------------------
    Congress created NEPA to provide procedural steps for agencies to 
take prior to initiating projects to assure that the decision maker and 
the public would be aware of the environmental consequences of the 
project. When making project decisions, among the factors federal 
agencies must consider, NEPA requires a look the environment and public 
concerns. The Supreme Court has held that NEPA is strictly procedural 
in nature, which means that NEPA requires only that an agency evaluate 
the environmental consequences of any action. NEPA require agencies to 
consider the environmental impacts of their decisions, but it does not 
mandate projects or methods. NEPA requires an agency to take a hard 
look at environmental impacts, but that agency can still take any 
course of action. There is no requirement in NEPA that the agency bias 
its decision in favor of protection of public health and the 
environment. <SUP>3</SUP>
---------------------------------------------------------------------------
    \3\ See generally Robertson v. Methow Valley Citizens Council, 109 
S.Ct. 1835 (1989), and Marsh v. Oregon Nat. Resources Council, 109 
S.Ct. 1851 (1989).
---------------------------------------------------------------------------
    NEPA and the regulations adopted there under by the Council on 
Environmental Quality (CEQ) are binding on all federal agencies. For 
every federal project an environmental assessment (EA) must be 
performed. The main purpose of the EA is to determine whether an EIS 
needs to be done. If, as a result of the EA, the agency finds that 
there is no ``significant'' environmental impact, then the agency 
issues a Finding Of No Significant Impact (FONSI) and continues with 
the project. The definition of ``significant'' has been heavily 
litigated because if an agency issues a FONSI as the result of its EA, 
and there are unresolved conflicts about the impacts of the project, 
those concerned will argue that the FONSI was incorrect and that an EIS 
must be prepared prior to continuing.
    WildLaw attorneys have reviewed more than 5,000 NEPA documents, 
including several hundred EISs, thousands of EAs, and thousands of 
Categorical Exclusions (CEs), Decision Memos (DMs) and other related 
work. We have seen 12-page EAs that fully complied with NEPA, and we 
have seen 450-page EISs that did not even come close. Page length and 
``administrative burdens'' have nothing to do with whether an agency 
complies with NEPA or not. It is the attitude of the agency personnel 
that matters most.
    If agency personnel see NEPA as a burdensome hurdle to be overcome, 
they will inevitably fail to comply with the law. When they see NEPA as 
a process to improve information collection and decision-making and as 
a means to improve public participation, they invariably do excellent 
work, both in the NEPA analysis and on the ground.
Examples of NEPA Working in the Southeast

Kisatchie National Forest, Louisiana
    Some U.S. Forest Service District Rangers use the new Healthy 
Forests Initiative (HFI) authorities (which deal with NEPA 
requirements, mostly) to shortcut public participation. When they 
decide to undertake a project on their national forest they send out 
generalized scoping notices (sometimes no more than two paragraphs) and 
do not allow public comment on any draft EAs they do. The only 
information the public ever gets about any categorically excluded HFI 
project before it is decided is the scoping notice. Thus, if the 
scoping notice does not give specific details, the public is taken by 
surprise, after the decisions are made.
    Districts in the Kisatchie National Forest, such as the Kisatchie 
District, send out 5-10 page scoping notices that include detailed maps 
and several photos of the project areas, all with brief, but clear and 
detailed, descriptions of the project areas and planned actions.
    After a CE project is decided, it is important that the decision 
memo (DM) cover the analysis done and properly justify the project and 
the use of the CE under the HFI. Otherwise, a member of the public 
concerned about the project will have no way to find out more. 
Commonly, citizens in this position resort to litigation in order to 
learn the details of the project. Again, districts in the Kisatchie 
shine in providing detailed DMs, including analysis of data on 
management indicator species and other surveys, that give a very clear 
picture of the staff's work and analysis and of the project's proposed 
actions and impacts.
    A good CE scoping notice and a good CE DM can head off much trouble 
if they show thoughtful, careful and proper use of the HFI authorities 
in ways that actually do address forest health problems.
    If a project is too big for a CE and requires an EA, the agency 
should send out the draft EA for a reasonable period for public review 
and comment. Courts have ruled that the public must have a chance to 
review and comment on a draft EA (or NEPA material that is 
substantially equivalent to the EA) from the Forest Service.
    All the districts in the Kisatchie provide reasonable comment 
periods on their draft EAs. For an example of an exemplary EA, get a 
copy of the draft EA for the Little Kisatchie Project Area project from 
the Kisatchie District. It is a very fine EA giving the reader an 
excellent and clear review of the project, its purpose and its impacts.

National Forests in Alabama
    In 1992, the National Forests in Alabama were the worst in the 
whole Forest Service system. Their only goal was logging and this 
negligence resulted in legal violations. A series of lawsuits, appeals 
and other legal actions shut down all logging in the National Forests 
in Alabama in 1999. Since then, the leadership of the Forests and much 
of the staff has changed. Now, the National Forests in Alabama are 
implementing scientifically-valid restoration programs, all of which 
were prepared under (and in full compliance with) NEPA. If NEPA can be 
followed in Alabama, after such dismal failure, such a reversal can be 
achieved anywhere. The first to do this new type of restoration work, 
the Conecuh National Forest prepared a full Environmental Impact 
Statement (EIS) on what restoration is needed for that forest's unique 
Longleaf Pine/Wiregrass ecosystem (the rarest forest type in North 
America) and on what work could be done in five years to correct past 
mismanagement and restore the natural and healthy forest native there. 
That restoration plan was not challenged legally in any way and is 
proceeding successfully.
    The Talladega National Forest just released their five-year 
restoration EIS in early 2004. It covers 19,000 acres. They had MIS 
data for the entire area over several years, and they did complete 
surveys for endangered, threatened, proposed and sensitive species on 
every acre of that 19,000 acres.
    Now National Forests in Louisiana, Florida and parts of Mississippi 
are also doing great Longleaf Pine restoration work, all in compliance 
with NEPA. Population trend data on management indicator species is 
being collected and analyzed. Survey data on threatened, endangered, 
and sensitive species is being collected and analyzed. Public 
participation is open and good. NEPA analysis for most of these 
projects is exemplary and does not slow down the agency at all. Indeed, 
most of these forests have found that doing NEPA analysis right, 
instead of trying to shortcut NEPA, makes their final decisions better 
and more successful.

How can agencies comply with NEPA? Simple, do these things: Follow the 
        law, use good science, be honest and open with the public.
    Which takes longer? (1) Doing a quickie EA in four months, or (2) 
Doing a full and thorough EIS for two years? Answer: (1).
    Consider one timber sale WildLaw challenged in the late 1990s. The 
EA came out, and it was garbage. We appealed the decision to proceed 
with the project and we won. The second EA came out much the same, and 
we appealed and won. The third EA came out, and, yep, we appealed and 
won again. The fourth EA came out; it was finally better but still 
lacking. It got stopped by a lawsuit. So, the EA that took four months 
to do has still not been implemented now eight years after it was 
started.
    Around the same time, the Conecuh National Forest did a full EIS on 
longleaf pine restoration on the forest; it took them about two years 
to plan and prepare the EIS. They are now entering year five of that 
five-year project and are starting the phase two EIS tiered to the 
first EIS. That Ranger has won numerous awards, got a nice, big Tahoe 
to drive, and has made the local loggers and politicians happy. 
Scientists and all environmentalists involved in that forest are 
pleased. The Ranger who did the crappy EA has disappeared somewhere 
into the bureaucracy.
    Read the Conecuh Longleaf Pine Restoration EIS. It is not a long 
EIS in page-length as it is a good example of site-specific detail and 
data without unnecessary filler. When they did it, they got a lot of 
flack within the agency about how ``this is not the way we do things,'' 
but guess what? Once it was done, it was not appealed or sued over (not 
even by that 5% who oppose logging on principle), and the Conecuh is 
now winning awards and national recognition for their work. And 
rightfully so. Now, all the forests in Alabama are doing restoration 
EISs. The analysis work takes longer than for an EA but the result is 
MUCH better.
    Below are photos showing how the Conecuh National Forest uses 
clearcuts with reserves to eliminate unnatural Slash Pine plantations 
to restore them to native Longleaf Pine:
    NOTE: The following pictures have been retained in the Committee's 
official files.
    <bullet>  Figure 1: All Longleaf is retained and debris is spread 
to prevent erosion and rutting.
    <bullet>  Figure 2: Longleaf seedlings are planted and prescribed 
fire maintains the composition of the stand.
    <bullet>  Figure 3: Longleaf forest in need of fire.
    <bullet>  Figure 4: Prescribed fire in action.
    <bullet>  Figure 5: Restored Longleaf forest after thinning and 
with regular prescribed fire.
    Also, you don't see massive wildfires on Alabama's National 
Forests, precisely because they have a well-planned work program to 
restore the natural forests, including regular prescribed fire. Instead 
of disingenuously claiming that clearcuts done to get the cut out 
``mimic natural processes,'' they are actually restoring and assisting 
natural processes. These photos show how using prescribed fire for 
restoration purposes works in the Conecuh National Forest.
    The other National Forests would do well to learn from the Conecuh 
in Alabama. They should take a year or two to do a full and excellent 
EIS on what restoration really means for their district or forest. If 
they consider all forest needs, road repair and road obliteration, 
stream rehabilitation, indeed entire watershed rehabilitation, etc., 
and involve all stakeholders at every step they will be in a vastly 
better position for future projects. It is more effective to do a 
comprehensive analysis than to analyze individual projects which 
cumulatively are big. Yes, that takes longer than an EA, BUT the 
rewards could be significant. They include:
    <bullet>  No need to do NEPA analysis, National Forest Management 
Act data collection or Endangered Species consultation for five years. 
Instead of doing EAs and having to do the same analysis over and over 
for each project, do all the analysis at once and do 20 projects 
together as one restoration plan. Then, the 20 projects will make more 
sense and do a better job for the land than if you did them all 
piecemeal. Do the analysis once and then do work in the woods for five 
years before you have to do analysis again.
    <bullet>  95% of your opposition will be gone. Why? If you comply 
with the law, collect and use good data, utilize good science and be 
open with everyone and keep them involved, the result will be better. 
Sure, there is 5% out there who will oppose anything the Forest Service 
(or other federal agencies) does, but how often do they sue? They do 
occasionally, but the they only win when the agency has broken the law.
    <bullet>  Make your work truly bulletproof. For years WildLaw has 
heard about Forest Service people trying to ``bulletproof'' their EAs 
by using certain language or by making up shortcuts that they think 
will look like compliance with the law. Guess how many of these 
``bulletproof'' EAs WildLaw has been able to shoot dead? The only way 
to ``bulletproof'' your work is to do the work right. Follow the law, 
use good science, be honest and open with the public, and no attorney 
with any sense will dare sue you.
    <bullet>  Awards, big vehicles, commendations, accolades, 
promotions and fast career advancement (for solving the ``analysis 
paralysis''), admiration from your fellow agency people and from a 
variety of folks in the public, and good beer and fine whiskey.
    In woodworking, the saying goes ``measure twice, cut once.'' It 
means take the time to verify that the planned action is correct and 
then you get to take that action without making mistakes and without 
having to do the work over. For NEPA analysis, the same is true. Take 
the time to make sure what you are doing is right and done well, then 
you can do it without having a judge tell you to go do it over again. 
And over again....
    The solution to NEPA ``burdens'' lies not in changing the rules of 
analysis but in changing how the analysis is done. For too long, 
agencies have compartmentalized (literally) their work. Trying to make 
each project look small and insignificant seemed like a good way to 
avoid doing population data collection, cumulative impacts analysis and 
a host of other things required by law for ``big'' projects. That 
hasn't worked too well, has it?
    Agencies need to stop looking at compartments and individual 
projects. Instead, they should use NEPA as a tool to assess what the 
land needs and what they can do to meet those needs over a longer term, 
at least five years. This is not project planning but rather an 
approach to how to implement plans with a broad vision instead of a 
microscope.

Main problems we see with EAs (in no particular order)(and many of 
        these will be in the context of National Forest projects, which 
        we review the most):
     1.  Emphasis with packing EA with boilerplate language. More does 
not make better; better makes better.
     2.  Lack of site-specific information about the project area and 
the impacts to it.
     3.  Lack of cumulative impacts identification and assessment.
     4.  Failure to consult with and use the expertise of local 
scientists.
     5.  In the rare species realm, the idea that ``if we assume they 
are there and plan the project accordingly, things are okay.'' The idea 
that you do not impact rare species if you assume they are there is a 
fallacy. It is impossible to know that mitigation measures and other 
actions to reduce impacts to rare species work unless there is some 
science showing they do. If you do not survey for rare species and just 
assume they are there, you have no way to know if your assumed 
mitigation works. Example: you can assume that Passenger Pigeons are in 
a project area and execute the project and its mitigation accordingly, 
but you will not have any Pigeons when you are done.
     6.  Conversely, without truly looking for sensitive species there 
is no way to know whether they are present in a project area and how a 
project may impact them.
     7.  Similar to the above, the assumption that leaving habitat 
available for a species means that the species uses it. Without actual, 
on-the-ground, survey data, you have no way to know this. Example: the 
National Forests in the South have plenty of good habitat for Passenger 
Pigeons, so that means we have lots of them, right? You can build a 
$100 million baseball stadium in Slapout, Alabama, but that does not 
mean a major league team will use it. In order to know you are doing 
the right thing, you must know the facts about the land and about the 
impacts of your actions on it; you cannot guess, estimate, speculate or 
model reality. You have to know to know.
     8.  Lack of reasonable alternatives. Some EAs have even had only 
one action alternative (with the obligatory but readily dismissed ``no 
action'' alternative). Really give consideration to the ``no action'' 
alternative; it won't kill you, honest. I know of two Forest Service 
projects (one in AL and one in LA) where, once the Ranger gave real 
thought to the ``no action'' alternative, they chose it. Action is not 
always the best action.
     9.  Do not limit your decision or your alternatives by drawing up 
an artificially narrow purpose and need for the action. Remember: if we 
can show a court that you fiddled with the purpose and need to 
predestine the outcome, we can get the project enjoined no matter how 
well you complied with the laws after that. Some forests are now giving 
full consideration to noncommercial methods of achieving the purpose 
and need; doing so does not mean you have to choose it but failing to 
consider the option when it is possible means losing in court. But some 
districts have chosen noncommercial alternatives, particularly for 
thinning young, dense stands of pines. Sometimes, not selling trees 
works best.
    10.  Conversion of natural forests, example: hardwoods to pine.
    11.  Perpetuation of problems. We saw half a dozen Southern Pine 
Beetle projects in 2001-02 that planned on logging infected Loblolly 
Pine and then planting Loblolly right back again. You cannot solve a 
problem if the solution recreates the very conditions that caused the 
problem in the first place. If you are not going to truly solve a 
problem, it would be better just to leave it alone. Districts that 
solved the problem replanted with Longleaf, which was what was supposed 
to be there.
    12.  BEs based on lack of data from project site and on overall 
population data on rare species.
    13.  ``Site-specific'' information that is clearly wrong. We do 
check the sites of projects from time to time; we won't claim that we 
check every stand in every project, as we don't have enough people or 
money for that. But we get out to more of them than you will ever know. 
The odds are if you are misrepresenting the situation on the ground, we 
will nail you on it sooner or later.
    14.  Assumption that ``because what we are doing is supposed to be 
good for the environment, then we don't have to do much analysis.'' 
NEPA requires equal identification and analysis of all impacts, even 
``good'' ones, to make sure that the real result of a proposal can be 
reasonably known ahead of time.
    15.  Use of ``paper reality.'' Example: ``Visual Quality Objectives 
will not change due to clearcut.'' VQOs are standards set on paper, and 
they are changed by changing the paper; they won't change even if a 
nuclear blast hits the site. A clearcut will change the scenic and 
visual quality of an area even if Plan and paperwork says the VQO stays 
the same. NEPA requires assessment of real world impacts, and that duty 
cannot be foregone by saying your paper classifications would be 
changed by timber cut. Another example: classifying a site as a ``pine 
site'' in order to claim that cutting down the 100-year-old hardwoods 
there is ``not conversion.''
    16.  Failure to show how mitigation measures will be applied in a 
site-specific manner and how they will work. Merely listing mitigation 
measures in the EA is not legally sufficient. You must show that they 
will reduce impacts to a level of insignificance or you HAVE TO prepare 
an EIS. If you have used those mitigation methods in the past and they 
have worked, don't just say so; demonstrate that success in the EA 
through data, studies, research or even well-documented observations 
and photographs. Although a scientific study on how stream buffers in 
your district did indeed prevent sediment from entering the water is 
best, accounts of actual field observations of similar buffers on 
similar slopes and soils in the past that did show that sediment 
stopped yards form the stream is an acceptable demonstration of the 
impacts and results of mitigation. Unsupported claims of ``best 
professional judgment'' mean nothing, but judgment based on documented 
past experience is something worthwhile. Include in the EA accounts of 
past similar projects and how the mitigation measures worked there; 
include photos, maps, field notes, etc.
    17.  Misunderstanding of the ``significance'' standard in NEPA. An 
EIS must be prepared unless the agency can show that the impacts will 
be insignificant, either in themselves or through use of properly 
documented mitigation measures. If the impacts might be significant, or 
if the agency just does not know if they will be significant or not, 
the agency must prepare an EIS. Most districts assume that unless the 
impacts are clearly shown to be significant, then an EA is all that is 
needed; that is not the law. NEPA assumes that an EIS is required 
unless the EA can prove that the impacts will not be significant; 
failure to make that proof mandates an EIS. The burden is NOT on the 
public or environmental groups to prove significance.
    18.  Minimization of negative impacts, a lack of honesty about 
things being bad. Example: claims that a clearcut will not look bad, it 
will provide ``visual diversity'' or ``a deeper view into the forest.'' 
Use of euphemisms or contrived language (``timber harvest,'' ``visual 
diversity,'' ``regeneration cut,'' etc.) Don't make ridiculous claims 
like ``portions of the public like how clearcuts look.'' Yes, the 1/10 
of 1% of the public who are loggers may like a clearcut but to 
``balance'' that evenly with the 99.9% of people who do not is just 
deceptive. BE HONEST! A clearcut to restore the native forest type WILL 
look bad for many years; admit that but explain clearly that the 
adverse visual impact is needed to get the beneficial result of 
restoring the natural forest in that area. Admit where you lack data. 
Admit where you do not know if mitigation measures will work. We will 
be inclined to work with you to address those deficiencies if you admit 
them, but if you hide them, we will attack you (and rightfully so).
    19.  Attempts to minimize negative impacts by artificially limiting 
space and time of impacts analysis. Examples: using a three-year time 
frame for assessing impacts from clearcuts; real world impacts from a 
clearcut last much longer than three years. Limiting analysis to 
artificial boundaries such as compartments or ``action area'' or a 
conveniently drawn ``project area.'' A clearcut in compartment X will 
have cumulative impacts (scenic, wildlife, etc.) with a clearcut 30 
feet across a road from it in Compartment Y, but if EA analysis only 
looks at Compartment X or the watershed that holds X (although X and Y 
are compartments next to each other at the top of two adjacent 
watersheds), real world impacts will be ignored and public will be 
deceived by the paper. But a judge will see my photographs and video 
showing how you missed a cumulative impact that was just 30 feet from 
your project.
    20.  Attempts to force inappropriate projects into types that are 
categorically excluded from the requirement to conduct an EA. If the 
project is valid, considering the environmental impacts and informing 
the public can only make it better.

Suggestions for ways an agency can improve its NEPA compliance (in no 
        particular order):
     1.  Better maps in EAs (need clear copies, color works best).
     2.  More detailed scoping notices.
     3.  Provide more information on projects even when they are 
categorically excluded from the EA requirement.
     4.  Distribute EAs and EISs on CD-ROM in addition to paper. You 
will save paper, and those of us who are computer savvy will appreciate 
it.
     5.  More site-specific description and information.
     6.  More identification and assessment of cumulative impacts. 
Really monitor after the project and develop real data on what impacts 
are. This will be very useful to you for future projects.
     7.  Less boilerplate language. Use it only when really 
appropriate; do not try to use it as a substitute for real work. 
Packing an EA or EIS with irrelevant information is a waste of your 
time; it will not ``bulletproof'' your work.
     8.  Use local data and studies. Less reliance on distant studies 
to justify action. Example: a southern National Forest in the 1990s 
used New England bird studies (from more than 1000 miles away) on 
impacts from clearcuts planned in Alabama (totally irrelevant to local 
climate, forests and bird species) and rejected local studies done in 
that very district by the state's foremost ornithologist; even though 
those local studies were complementary to 80% of what the district was 
doing in its timber program. Things like this make for easy winning 
appeals and lawsuits for us.
     9.  Seek out and use work and opinions of local experts. Local 
university scientists, studies funded by environmental groups (For five 
years, WildLaw and its client Wild Alabama funded more studies on the 
National Forests of Alabama than anyone, including the agency), Natural 
Heritage Programs, National Speleological Society (for finding caves 
and assessing them for endangered bats), etc. The Forest Service admits 
it lacks resources to do all the scientific research it would like, so 
you need to be more proactive in getting help from outside sources. 
Form networks with experts BEFORE projects are proposed and get their 
input at all stages. Don't just assume experts will know about projects 
and comment if needed, because often they do not.
    10.  Consider more alternatives.
    11.  Give consideration to economic impacts other than those that 
support the proposal. For example, when planning a timber sale, 
consider the effects of lost recreational use.
    12.  Use reality. If real world and paper classifications do not 
match, admit it and assess the real world impacts; do not sweep them 
under the rug.
    13.  Admit it when you don't know things. NEPA does not require 
perfect knowledge but a reasonable attempt to identify impacts. Do the 
best you can and admit data gaps. ``Best professional judgment'' means 
nothing when you have collected no data; when you use your ``judgment'' 
on a foundation of nothing, you are just guessing, and smart judges 
know it. But when you have made a good, honest effort to collect what 
data and research you could and then make reasonable assumptions based 
on best professional judgment to fill gaps, that can be okay.
    14.  And when in doubt about the data and impacts, be humble and 
act cautiously. Do not take a ``see no evil'' approach. Be respectful 
of the fact that you really do not know everything there is to know 
about a forest; no one every will. Environmentalists are much more 
willing to work with agency people who recognize and admit the 
limitations of their knowledge. Agency people who act like they know it 
all are big, bright (and EASY) targets for us.
    15.  Give equal weight to other uses of the land in question.
    16.  Give REAL consideration to the thoughts, ideas, and (yes) 
feelings of the people who use and love the area. In some areas and in 
many ways, the people who use the area for hunting, hiking, etc. do 
indeed know the place better than the agency people do, and you must be 
honest and brave enough to admit that fact and REALLY seek their help. 
Do not just pretend to seek public input and then brush it off and do 
what you want anyway. Example: a number of truly world-class 
archeological finds have been made on the Bankhead National Forest in 
the last 15 years, ALL by local people, none by the Forest Service.
    17.  Distribute information widely. Make the mailing lists open; 
assume that people want the stuff unless they tell you otherwise. Do 
not try ways to get people off the list so that you can ``hide'' 
projects from them; do not send out quarterly notices saying, ``If you 
do not return this card within ten days, we will assume you have no 
further interest and will drop you from the list.'' Your default should 
be that people are interested until they say they are not, not the 
reverse. In this age of electronic mailing lists, you have no excuse 
for not including everyone on everything.
    18.  Get out into the woods with environmentalists. We are not your 
enemies, unless force us to be. WildLaw has often found common ground 
while actually out standing on the ground and discussing things as we 
saw them. Invite all environmentalists who comment or show interest in 
your forest for hikes, cook outs, canoeing, camping, whatever. Those 
who are truly interested in the forest and the project will accept and 
be willing to talk with you. Those who refuse your repeated attempts to 
reach out to them are more interested in their agenda than anything 
real; we cannot help you with those folks other than to say to do your 
job right and the best you can and ignore them the best you can. If you 
comply with the law, they cannot beat you in court. Environmentalists 
only win in court when they are right; there is no ``bias'' among 
federal judges toward environmentalists. We have practiced before more 
than 200 judges; none of them let us have what we wanted just because 
we wanted it.
    Remember: if an agency hides things, minimizes real world impacts 
or evades full compliance with the laws and regulations, the public 
will assume that it is up to something, and they will challenge the 
proposal. Even if a proposal will have beneficial results (such as 
restoring the natural forests in that area), if you cut corners, we 
have to assume that you are up to something dastardly. Otherwise, why 
would you be cutting corners? Honesty and openness in all things will 
do you much more good than anything else.
    NEPA is a tool for exploring environmental issues and public 
concern about these issues at a point when true problems can be 
resolved without impeding projects. When the NEPA process is followed 
in the spirit of collaboration, only flawed projects will be 
challenged. NEPA results in improved agency work.
    I deeply appreciate this opportunity to address the Committee and 
present this testimony before it. I remain committed to working with 
the Committee's members and staff to find real solutions for making 
NEPA a better and more effective law. Representative Joe Barton has 
publicly invited environmental groups ``to come out of the trenches'' 
and meet you halfway. If that invitation is truly sincere, as we 
believe it is, we are here to do that.
    Thank you,
                                 ______
                                 
    Miss McMorris. Thank you. Excellent testimony. Congressman 
Gohmert and I are going to take turns now asking questions.
    I'll let you start.
    Mr. Gohmert. (Inaudible) I really appreciate your time. 
(Inaudible). So let me go straight to our Texas Chairman of the 
Railroad Commission.
    You had mentioned in your testimony, Chairman, that there 
was some storm water runoff issues that apparently you didn't 
get to. Would you care to address that issue?
    Mr. Carrillo. Yeah. There's some particular provisions to 
the proposed EPA rulemaking under the NPDES storm water permits 
that would potentially require a storm water permit for oil and 
gas operators for activities affecting 1 acre or more of 
activity, particularly with what's referred to as the common 
plan of development concept in the Construction General Permit.
    From my perspective, what would happen is--if that occurs 
is that EPA's rule would really improperly seek to put oil and 
gas exploration and development--categorize it as if it was 
residential/commercial development. There are big differences 
in residential and commercial development. Clearly, if you're 
building a subdivision, you start out here and you know you're 
going to have 500 homes, you can plan.
    You can say that, yes, indeed, the total activity is going 
to impact this certain amount of acreage.
    In oil and gas development, for example--I'll give you an 
example. You may spend 2 1/2 million dollars to drill a well 
and you--you certainly have plans to develop that property 
beyond that; but it could very well be that that is a dry hole 
and you abandon those plans and the impact ultimately ended up 
being just one pad site.
    So there's some rules that are being considered that I 
think could negatively impact development to the tune of--one 
study said it could cost the country from 1.3 to 3.9 billion 
barrels of domestic oil production and 15 to 45 trillion cubic 
feet of domestic gas production over the next 20 years.
    To put that in perspective, Councilman, taking the median 
of those numbers--that represents over five total years of 
Texas natural gas production and over seven years of Texas oil 
production that would be lost.
    And the issue, as I see it--and I recognize that we're 
doing--NEPA is kind of used as an umbrella through which all of 
these other laws are considered, whether it's the Clean Water 
Act, Clean Air Act, Endangered Species Act, et cetera. And so 
while it doesn't relate directly to NEPA, I think due to the--
due to the fact that you're dealing with these additional 
environmental laws, it does come into play.
    Mr. Gohmert. Let me follow up, too. You're familiar with 
hydraulic fracturing, for example. I understood that the State 
of Texas had a program that's worked for a hundred years that 
has oversight over hydraulic fracturing. Can you explain some 
of the steps in place that--the Texas regulations that protect 
the environment and perhaps that could be exported into the 
Federal level?
    Mr. Carrillo. Hydraulic fracturing refers to fracturing the 
subsurface strata, generally thousands of feet below the 
surface, to release oil and gas that is--that is currently 
trapped under there. The Barnett Shale Gas Play, the hottest 
gas play in the State of Texas, and one of the biggest and most 
important plays in the nation, is just under the City of Fort 
Worth and surrounding counties.
    If we--if industry was not allowed to fracture the rock and 
the subsurface that--that play would not be a viable economic 
play. That represents about 26 trillion cubic feet of natural 
gas potential.
    So at the very time that this nation needs more energy 
resources--we're importing about 50 percent of our oil--we're 
actually importing gasoline right now, and we're looking to 
build liquified natural gas facilities. This is the very time 
that we need to encourage more domestic production, not 
unnecessarily discourage it.
    Now, hydraulic fracturing does have a history--about a 
hundred years here in the state--of production without any 
known damage to groundwater resources, because, in fact, the 
fracturing is limited to those strata thousands of feet 
underground, not anywhere near the--the near surface, I guess, 
groundwater resources.
    And so I guess my encouragement is to give the states more 
flexibility to deal with these issues internally as opposed to 
having a Federal answer--one-size-fits-all answer to the very 
different and varying problems of the individual states that I 
believe deal with them and do on a regular basis.
    Mr. Gohmert. Thank you, Chairman.
    Miss McMorris. I wanted to direct a question to Mr. 
Dructor. I was--found it interesting to hear about the 
alternative arrangement that was made with the CEQ in response 
to the wind that (inaudible). I understand that you mentioned 
in your testimony it was only the 38th time that they had 
granted such a request.
    I wanted to ask if you--were alternative arrangements used 
to expedite other restoration activities such as reforestation? 
If not, what do you believe were the consequences?
    Mr. Dructor. I think according to Mr. Davis' testimony and 
what I saw in the photos he presented, there's evidence there 
that the alternative NEPA arrangements (inaudible) harvesting 
activities of that timber.
    When it came down to reforestation projects and NEPA 
processes were involved, full EISs had to be administered; and 
because of that--those pictures were taken on July 13th of this 
year. When I was out there looking last week, taking those 
pictures, they were still doing sod prep (inaudible). They 
hadn't been planted yet.
    And so we're looking at trees that haven't been put in the 
ground versus 15- to 20-year-old trees already re-establishing. 
And as a result of that, you know, we're losing habitat for our 
Red-cockaded Woodpecker every time one of these storms hits. 
And the frequency of these storms is not just every once in a 
while. It's quite often in the southern forests due to 
hurricanes, tornadoes, windstorms, all that.
    And so if we're really going to be concerned about 
protecting these Red-cockaded Woodpeckers, we need to get 
something done a little bit faster. And we propose, you know, 
to do that, we need to look at some alternative ways to evoke 
NEPA or to streamline NEPA to get these projects underway.
    I think it's amazing that, you know, that out of the 2 
billion board foot allowable to be cut right now, the Forest 
Service are under litigation for 1.6 billion board feet. So is 
NEPA working? I don't think so.
    I brought this with me. I'm sorry I didn't have time to 
show it a minute ago. This is the timber sale volume that is 
under litigation across the national forests throughout the 
United States. And certainly, you heard we don't have but about 
3 percent of volume of Federal lands in Texas. In Region 8, 
where we fall, we have 50 million board foot of timber that's 
under litigation.
    Miss McMorris. I'm in Region 6.
    Mr. Dructor. Pardon?
    Miss McMorris. I'm in Region 6.
    Mr. Dructor. Region 6? Yes, Washington. There's 277 million 
board foot under litigation. And this doesn't include the 
timber in the Timber Sale Program that's under appeals prior to 
being (inaudible). It's being determined how it's going to be 
managed.
    So is NEPA working? Are we using the best process? I think 
NEPA has got good (inaudible) to it, but we need to take it 
back to its original intent.
    Miss McMorris. If we were to put something, you know, 
administratively to establish an alternative arrangement, how 
do you believe it would impact public participation? Because 
that is one of the bases of the NEPA process, encouraging--we 
want to be encouraging public participation. Can you talk to me 
a little bit about how, you know, we could encourage more 
people in this process with arrangements--how it might impact 
public participation?
    Mr. Dructor. Well, I think--I think, again, you have to get 
it back down to more of the local level. You can't do 
everything out of Washington, D.C. We've got the (inaudible) 
office building right here at Stephen F. Austin State 
University.
    These guys (inaudible) for our forests, and they know 
what's going on on the ground. We can't legislate and set 
forest policy (inaudible) each individual impact down here on 
our forests. We've got to get control back to the local levels 
and invite public input on the processes, the local folks who 
it's going to have the biggest impact on.
    Miss McMorris. In your written testimony, you referred to 
an assessment by Congressman Greg Walden of the timber sales 
program; and you were commenting a little bit about it, you 
know, I think, by showing this chart, the state of timber sales 
program. What do you feel the effect has been on local 
communities?
    Mr. Dructor. Devastating. I certainly know of mills that 
have closed here in East Texas because they were dependent on 
Forest Service timber sales, (inaudible) in Huntsville, Texas, 
and a few others around. Because they didn't own their own 
acreage, they had to go out and buy--the Forest Service usually 
had some set-aside sales where they could go out and get on 
those (inaudible) support.
    So I think it's (inaudible) important when you start 
getting an even analysis of what are the economic impacts. I 
don't think there's enough emphasis put on--in the NEPA 
analysis of how it's going to affect the local economies.
    Miss McMorris. Thank you.
    Mr. Gohmert. I'd like to hear from Ms. Nichols.
    Ms. Nichols, I appreciate your comments and appreciate the 
information you also provided in writing. We don't know each 
other personally, but I've heard a good deal about your 
organization and you personally, and the----
    From my understanding, you and your organization are a 
great example of how people can approach things from two 
different positions in concern for the environment that your 
organization has and concern for individuals and families that 
are adversely impacted. My understanding is that your group has 
worked well with other groups, that you try to arouse common 
sense.
    You testified a moment ago that the vast majority of your 
projects proceed without any problems. From what I understand, 
that may be true because of the commonsense approach that 
you've had in protecting the environment. But from testimony 
we've seen around the country, with litigation just 
skyrocketing over the last 35 years and continuing that rapid 
growth and--for example, as board feet continue to decline in 
inverse proportion to the amount of litigation--it seems that 
it's--not everyone uses good judgment in trying to protect the 
environment, as I understand you and your group have. So I 
think you-all are to be applauded.
    I do need to make--since all of this is being recorded and 
will be part of our Congressional Record on this issue, with 
regard to (inaudible) and Environmental Impact Statements, 
Section 1502.7 requires that there not be--the final EIS shall 
normally not be less than--I'm sorry--shall normally be less 
than 150 pages; and proposals of unusual scope and complexity 
shall normally be less than 300 pages.
    But when you--you say that NEPA resolves conflicts. I mean, 
we're seeing this heightened litigation that's created more 
conflicts; and we saw in our hearing in Spokane where there 
were, like, eight feet or more of just documents over a 
(inaudible) less than a mile of road. It's been in litigation 
for years.
    I really appreciate your approach; so let me just ask: How 
is it that you have been able--what have you done to work with 
groups to come to conclusions so that you can say the majority 
of the projects proceed without problems? What are you--how do 
you----
    Ms. Nichols. Well, I have to start--thank you. I have to 
point out that there are always going to be people with extreme 
positions on both sides; so there will always be conflicts of 
this type, and it's not--NEPA doesn't give them any advantage. 
People would be objecting to development projects, no matter 
what.
    Our approach is that, you know, logging trees is legal. 
Mining is legal. All these projects are very important to our 
economy, but we just want to see them done in the best way 
possible.
    And from our perspective, NEPA--when--with an emphasis on 
when it is implemented correctly. If the stakeholders are 
involved and there's collaboration and different perspectives 
are respected, conflicts get resolved. It's really when people 
are shut out of the process--we are talking--NEPA only affects 
public resources; so when people are--when the public is shut 
out of the process, they're more inclined to sue, even if it 
turns out it's a good project.
    If they're listened to, if informed, and their perspective 
is at least considered--and we all know NEPA doesn't dictate 
how Federal agencies do their work. They can still do with any 
project what they want; but 99 times out of a hundred when 
concerns are at least considered and decisions are explained, 
then most reasonable people will try not to fuss.
    Is that basically what you're saying?
    Mr. Gohmert. Uh-huh. I appreciate that insight, yes, ma'am.
    Ms. Nichols. Thank you.
    Mr. Gohmert. And let me also mention that it seems that one 
of the problems we hear is it's not necessarily just NEPA, 
itself; but as with any law that Congress passes and--then you 
get the agencies involved and people that are not elected 
ending up giving their twists on regular--regulations, it ends 
up creating more problems for individuals than was ever 
intended by the laws.
    And so as you continue to answer questions, if you know of 
regulations that have created problems that we can address 
rather than the law, itself, then that would be a good insight.
    If I might just add this last: I like this as an example of 
regulations being completely different from the law's intent. 
Congress wanted, after 9/11, for airline pilots to have the 
right to carry guns in the cockpit. If they're going to fly one 
of the biggest weapons in America, a jet airliner, then surely, 
they can be trusted to have a gun.
    And I asked one of the pilots, ``Do you-all carry guns?'' 
And he said, ``Do you know what the regulations are in order to 
carry a gun? We've got to go through this intensive 
psychological review and testing and all these rigorous 
requirements.'' Most people are not going to--and that becomes 
part of your permanent file. Well, nobody wants all this 
psychological testing in their file. Regulators knew that; so 
they overcame the will of Congress just by the regulations they 
put in place.
    So any insight that you might have about Federal 
regulations that we need to get after will be helpful.
    Miss McMorris. And I might just mention that our goal is--
as a Task Force, we haven't yet figured out what our 
recommendations will be, but it is--there could be 
recommendations to the statute or to the way NEPA is 
implemented; so we're open to any suggestions you might have.
    I want to get back to Ms. Johnston. You said that the plan 
was impacted by the high natural gas prices, and we wanted to 
share with the audience--we have a chart that shows natural gas 
prices around the world, and I think it is important to note 
that we, in this country, are paying the highest of any country 
around the world.
    Ms. Johnston, can you just talk a bit more about your--you 
know, you made some choices, using what was probably the most 
environmentally friendly option that you had; and yet those 
choices ultimately affected your decision to shut down the 
mill; is that correct?
    Ms. Johnston. Yes, that is correct. And as I stated in my 
testimony earlier, the infrastructure--the energy 
infrastructure of the mill was put in place at a time when 
natural gas was plentiful and inexpensive, and so we saved 
money. And certainly, we didn't see the kind of prices that we 
experienced in 2002 and 2003. Prior to that time, we did have 
fluctuations in gas prices, but nothing like the levels that we 
saw at that particular time and have continued to sustain 
themselves, which was a huge problem.
    The other problem was we were making product that did not 
have high profit margins; so we weren't able to build 
additional costs into price of the product. And so with no end 
in sight in gas prices, the only decision that the company 
could make at that time was to close the facility, take a step 
back, and look and see if there aren't some other energy 
options that could be pursued to give us some relief on the 
costs.
    Miss McMorris. Just so everyone understands, NEPA does come 
into play in natural gas contracts. The government considers 
open-land explorations or giving lease permits, and I wanted 
just to ask: What do you think it would take for you to be able 
to plan and make appropriate cost adjustments? If supply were 
increased, that might lead to more stable pricing. Would that 
be something that would be helpful?
    Ms. Johnston. Certainly. And you are exactly correct in 
connection with closing the mill. The fact that--one of the 
primary reasons that the facility closed was because of these 
energy costs (inaudible) current configuration with prices in 
natural gas.
    And if exploration and drilling were expanded for natural 
gas, that would increase the supply, and we believe that it 
would impact the pricing of natural gas. We are a perfect 
example of what happens to a facility when the prices remain 
high and we can't overcome them by incorporating them into our 
prices.
    Miss McMorris. Good.
    Mr. Carrillo, I want to follow up. You made some statements 
related to the difference between state and the Federal 
processes and talked about the state--you were able to work 
through the state process in 25 to 35 percent of the time it 
takes to meet Federal requirements.
    I wanted just to have you talk a little bit more about some 
of the differences; and from that experience, if you have some 
recommendations as to how we might be able to improve the 
process, that would be----
    Mr. Carrillo. Certainly. Thank you. Actually, I would like 
to follow up on her response briefly. I think one of the things 
that I mentioned but didn't elaborate on is that for the good 
of the Nation and on a long-term basis, developing a liquefied 
natural gas facility to bring natural gas to some of these 
places far away from where the natural gas is said to be 
stranded, is less expensive than bringing it (inaudible) is an 
answer--may be the answer for stabilizing natural gas prices 
over the long term.
    I do think that the American public needs to brace 
themselves, frankly, for relatively high energy prices for, you 
know, the mid--short term to mid term; but, ultimately, some of 
these prices can be stabilized by what you said, increasing 
domestic production and, frankly, building an LNG facility, 
which we are doing, as I mentioned--Texas, Louisiana, and the 
Gulf Coast areas are doing. Even those areas in the northeast 
and west aren't willing to have these facilities along their 
shores; so that's one (inaudible).
    With regard to your question--and I was specifically 
mentioning--referring to permits to drill oil and natural gas. 
And I mentioned that we, here in Texas, have almost 50 percent 
of the total activity across the Nation in terms of onshore 
drilling.
    Typically--for example, at our state agency, we're on pace 
to approve some 15,000 drilling permits this year.
    That's a huge number of drilling permits. We have a system 
in place where, under normal circumstances, that takes from 
about one to five days. We have an expedited process, frankly. 
Operators can pay an additional fee; and they can walk it 
through, basically. And we can have a typical turnaround time 
of one day.
    We also have, over the years, increased our electronic 
filing ability so people can, from their office through the 
computer, via the Internet, submit their forms. We can process 
them more efficiently and do a turnaround time that's much 
quicker, and that is one thing--I'm not that familiar with the 
Federal process and whether electronic processing is available, 
but it should be. It should be encouraged. It certainly 
enhances the speed with which one can get that accomplished.
    I don't know if that answers your question.
    Miss McMorris. Thank you.
    Mr. Gohmert. Following up on the permit issue and the 
ability of the Railroad Commission to process permits promptly, 
apparently, you have the data in place that allows you to 
examine what will be impacted by a particular permit; is that 
correct, so it can be reviewed.
    Mr. Carrillo. Certainly. And we have cooperative working 
relations with other state agencies. For example, we can get 
information from the CEQ and Water Board that tells us to what 
depth is drinking quality water found so that we, in our 
requirements--our regulations require adequate protection of 
that water be--occur with the operator.
    So there's a lot of cooperation with different agencies 
that--I know it's more difficult at the Federal level, but it 
needs to be encouraged.
    I don't know if that answers----
    Mr. Gohmert. Yes, it does. And so--so in consideration of a 
permit and whether or not you approve it, you take into 
consideration the drinking water, the groundwater, those 
different aspects that are so vital to the rest of us. Is that 
accurate?
    Mr. Carrillo. That is accurate. And frankly, I mean, 
there's been oil and gas drilling activity here for over a 
hundred years. Over a million wells have been drilled in Texas; 
so a lot of it comes with the fact that we have just, over the 
years, had to develop some processes to work these efficiently 
through the system.
    Texas is also rather fortunate that we--there's very little 
federally owned land as opposed to some of the other western 
states, in particular; so it really doesn't--some of these 
Federal laws and regulations don't necessarily impact the state 
or the industry to the degree that they do in certain other 
states, particularly in the west.
    Mr. Gohmert. Following up on permits, Ms. Johnston, is it 
your experience with Abitibi that you-all could pretty well get 
permits reviewed and a definitive answer in one to five days?
    Ms. Johnston. That's a loaded question.
    Mr. Gohmert. That's an opening to discuss any permit 
problems that you face.
    Ms. Johnston. Well, (inaudible). Congressman, as you're 
aware, we have had a problem. We've had a (inaudible) permit 
that has been hanging out there for probably five to seven 
years. The permitting process--now, this is state, not Federal; 
but it does begin to be quite burdensome. And as many of my 
colleagues have said, it leads to additional costs and drain on 
the company.
    Mr. Gohmert. Well, Mr. Dean, you brought up, obviously, 
water; and obviously, you've been an active advocate on water 
issues. And then we've heard from Ms. Nichols that one of the 
keys is getting adequate input from the public--getting 
adequate information and availability from and through the 
public and to the public.
    What's your sense about the effect that--public comments 
you've made and others have made on the water laws that you've 
been discussing?
    Mr. Dean. Well, one thing--it seems like the public 
comments are invited, but then the reaction to those comments 
is--has been--it seems to be falling on deaf ears.
    And the point about trying to get--I've talked to the Corps 
of Engineers, for example, on mitigation issues. When the Texas 
Water Plan effort started in Northeast Texas, we were looking 
at building a large reservoir in Northeast Texas (inaudible) 
Marvin Nichols Reservoir, for example, 65,000 acres.
    And in some of the conversations that we had with the 
consultants who were sitting around the table and 
representatives from the other agencies, I asked the question--
I just threw the question out on the table. I said, ``What is 
the thinking on mitigation for this reservoir?''
    And one of the representatives from one of the state 
agencies said, ``Oh, well, we like to think in terms of 10 
acres of mitigation for every one acre that you put in the 
lake.'' So they're planning in terms of 650,000--600,000 acres 
of mitigation for a 65,000-acre lake.
    And one of the Water Board members who is here today, Mr. 
LeTourneau, just reported to me--I asked him, how things were 
going on the Water Board. He said, ``Well, maybe you didn't 
know; but the Marvin Nichols Reservoir has been taken off of 
the agenda as far as our Water Board in concerned.''
    So Northeast Texas has 55 percent of the developable water 
in the State of Texas; and yet we have to go through such 
regulatory land mines, so to speak, that we can't get anything 
done.
    It takes 30 years to get a lake permit, and yet it--and it 
costs millions and millions of dollars; and so apparently, the 
Water Board for Northeast Texas has decided it wasn't worth it 
for the Marvin Nichols to go through all that.
    So--so we have obvious needs that need to be fulfilled. We 
have reasonable ways to follow and fulfill those needs. We 
have--we have both sides of the public who are trying to work 
together, from the environmentalists--you know, all the way 
from the left to the right.
    And yet we have government agencies who have their own 
agenda or their own turf that they want to protect, and so it 
makes it impossible for--for the public--for us as general--as 
average citizens to get anything done. So we're just going to 
sit here and wait until we run out of water, I guess.
    Miss McMorris. Mr. Shelton, first of all, thanks for your 
testimony--your written testimony. It was very thorough, and I 
appreciate the time that it must have taken you to put that 
together and the examples that you shared about where NEPA has 
been a success and has worked well.
    One thing that struck me about your testimony was going 
back to the '50s and the '60s and the conditions that were 
present when NEPA was passed, and I wanted to ask if you feel 
the same conditions today exist.
    Mr. Shelton. Well, I guess the answer would be yes and no. 
We've solved some of those problems, but what's happening out 
there with--with our resources can be looked at as a slice of 
pie--or pie, so to speak; and we're just continuing to divide 
that pie up into smaller and smaller pieces.
    And what's interesting to note in the conversations we've 
had today is in some cases, with some resources, you can 
compromise. You can have your cake and eat it, too; but in 
other resource management decisions, they constitute an 
irretrievable commitment.
    And I believe the conversation about building Marvin 
Nichols--I mean, how can you compromise on building a lake? 
Because on the one hand, you have a functional stretch of river 
bottom which provides jobs and wildlife habitat and functional 
farms and productive timberlands; but once you build a lake, 
those are gone. So you're faced with an either/or.
    I think that the challenge we face in managing our 
resources and our environment today is trying to find positions 
where we truly can compromise and have our cake and eat it, 
too, rather than being faced with an irretrievable commitment 
that we cannot take back.
    So, you know, as our lands are divided and developed--you 
know, things have changed a lot since the '50s and '60s. And 
even though, in terms of impact on the environment, each 
particular industry may have reduced significant acts or 
conditions on the environment, we have more and more industries 
who are, in fact, contributing to this. So the cumulative 
effects over time are adding up.
    And as people increase, as demand on resources increase, 
you know, we're--we're eventually going to hit--hit a dead end 
somewhere along the way. So we really need to be very careful 
with what we do.
    Miss McMorris. You--you made it perfectly clear that you--
there should be no changes to the substance of the regulations, 
that any attempt to repeal the rights under NEPA confronts the 
democratic institution.
    I just want to make it clear that I think that more public 
involvement is very important in the NEPA process. I think 
there are--I do personally believe there's ways that we can 
improve this law and build upon what has been started, and it 
goes beyond just filling out reports or--and handing them off 
to the public and asking for public--you know, that we have 
disclosure or more information or more reporting. I'm not sure 
that that accomplishes our ultimate goal of protecting the 
environment.
    I really believe that if we can, early on, start the 
collaboration and work together that we're going to ultimately 
make better decisions for the environment.
    I wanted to ask you about the--the alternative approach 
that was used with the blowdown and to ask if you feel that 
there's an opportunity in some circumstances where we can 
utilize that type of approach when it's important that the 
decision be made quickly, because I understand that--that it 
was appealed, too, and that an EIS--you know, there's still 
resistance.
    Mr. Shelton. Yes. I was involved in that particular action; 
and, you know, ultimately, the timber was salvaged, as we saw. 
But pretty much what happened is due to this act of nature. We 
had a volume of timber that was impacted or damaged that was 
equal to, I believe, approximately two or three years' worth of 
timber harvest.
    It would have been--it would have been the allowable sale 
quantity of the amount of timber that they would have normally 
harvested during that period. We would have had this--
literally, a huge windfall out there; and rather than having 
these impacts and this timber harvest distributed out over a 
period of years and, actually, over the whole land base of the 
national forests, it was all concentrated in one particular 
area.
    So I think the concern there was that we were actually 
accelerating the harvest rate for that particular area of the 
Sabine National Forest. Of course, there was nothing that could 
be done about that. The timber was down.
    But the concerns were the impacts that go along with that, 
and I think that a really important point that needs to be made 
here today is that with respect to the national forests, you 
have all kinds of mandates which (inaudible) multiple uses and 
multiple resources out there.
    Mostly what has been focused on today is timber and forest 
products coming from the national forests and the great thing 
about a democratic country is that we can all have our input 
and we can pass laws which reflect our personal values and what 
we feel like our personal needs are.
    And we need to stress here that the national forests are 
trying to provide for the diverse values and needs of the whole 
population. There's no mandate out here that says we have to 
turn national forests into tree farms, because the same tree 
that will provide 2-by-4s also provides wildlife habitat and 
habitat structures, provides (inaudible) resource that protects 
the soil and water, and these are all very important values to 
the diverse American public out there.
    And so our group, especially, thinks that with respect to 
the national forests we should manage it with types of 
resources which are not well-represented in the private sector. 
As I mentioned, 94, 95 percent of East Texas is--manages the 
timber it's harvesting. So we--we feel like we should give 
special consideration to those other resources out there that 
are not being well-represented on private land, and we should 
focus those things on the national forests and should be 
especially conscientious of resources there.
    Miss McMorris. The private landowner also has to comply 
with the Endangered Species Act and the Clean Water Act and 
other laws.
    Mr. Shelton. The Endangered Species Act, yes. The best 
management practice is a voluntary thing which is supposed to 
help them comply with the requirements of the Clean Water Act, 
though. There's--there's a whole host of mandates out there 
that (inaudible).
    Miss McMorris. OK. I might have to come back to you for all 
my questions.
    Mr. Shelton. Sure.
    Miss McMorris. Did you want to----
    Ms. Nichols. I wanted to add--I just wanted to add one 
quick comment about responding to unusual emergency situations 
in projects that relate to NEPA.
    There is a whole (inaudible) in the regulations of 
(inaudible) that a category be excluded from the whole NEPA 
process. It's a much briefer process, and emergencies such as 
storm damage and field outbreaks are generally often covered by 
those exclusions.
    I just wanted to point out that NEPA already is flexible. 
I'm not familiar with the specifics of that issue, but I wanted 
to point that out. Thank you.
    Mr. Gohmert. And I do appreciate those comments. We have 
heard--and you've got it in your testimony previously. You said 
generally they're excluded. Well, they can be; but you have to 
go through the process of getting an exception. And as was 
pointed out by Mr. Dructor, the alternate arrangements have 
only been allowed 38 times in 28--in 20 years.
    And we've heard testimony in cases in which pine beetles 
have devastated an entire forest without anything being--ever 
being done because an exception was not granted.
    Forests have been destroyed by natural elements like the--a 
winter storm and then not getting a permit in time to go in and 
salvage the timber before it's completely lost and worthless.
    So it's one of those things--in fact, in his written 
testimony, Mr. Shelton had a quote--had a quote from an 
article. The article was entitled ``Some Modest Suggestions for 
Improving the Implementation of the National Environmental 
Policy Act. And you note the article--that NEPA wants to 
protect NEPA, and that's the gist--I mean, that is his title, 
``Some Modest Suggestions for Improving Implementation''; and 
he has a quote in his article that says (quote read).
    And that's what we're trying to do, even though I don't 
know what ossified means. So anyway--I know what mechanical 
means, and the mechanical approach it seems has gotten us into 
some problems.
    And it was mentioned a moment ago, Mr. Shelton, about the 
forests; but there also is no mandate that the forests become 
wilderness. And as we've seen here in Texas--and you can go to 
the Sahara Desert--there are areas where there have been 
wonderful, wonderful environments that nature, itself, has 
destroyed.
    And I think--this an editorial comment of my own. I think 
we were given the job to tend the garden here; and if we don't 
try to protect it, it goes to a terrible situation. Species go 
extinct on their own without man ever having a role in that, 
before man was around. So our goal is to try to be a good 
steward. And I appreciate everyone's testimony.
    I would like a little input--Mr. Smith, we didn't ask you a 
bunch of questions. And going back to permits, if you could 
give us a little snapshot of your--the problems or lack of 
problems for getting permits in order to proceed in mining 
areas.
    Mr. Smith. That's a great question. We have a very good 
relationship with Chairman Carrillo's agency. We meet with 
members of the (inaudible) Committee on a regular basis--on a 
quarterly basis, and we address permit issues.
    There's a great exchange of information there where the 
staff of the Railroad Commission--if there's any explanation--
discussion of the permitting requirements, that's thrown out on 
the table. If we have any questions or concerns, we throw that 
information out on the table. We work with them.
    We--Chairman Carrillo, himself, directed us about a year or 
so ago to take a special look at our permitting system in the 
State of Texas, which we did. Are there some ways that we can 
streamline that permitting process to make it go quicker in the 
state? So we have done that. We're continuing to do that.
    You always have parts of the permit--the Railroad 
Commission permit to go into an area and mine for lignite is a 
very unique permit in terms of complexity, length, and all 
that. There's a lot of pieces to that permitting system, and I 
would say that the best thing you can have is a good agency 
relationship and a good focus on making the best permitting 
system you can possibly make. That's what we've got in place 
now.
    There will always be parts of that permitting process that 
we wish would work a little quicker, whatever; but we're 
working on those things and hope that the end result will 
continue to be as efficient as we can possibly make it.
    Miss McMorris. Very good.
    Well, I thought I would go back to Mr. Shelton real quick. 
My friend here mentioned the Council on Environmental Quality, 
and they did a--you know, they did a review of NEPA and came up 
with some more--came up with internal recommendations of how to 
better implement NEPA.
    You, in your testimony, quoted the--what you thought was a 
good summary. And it is mentioned under a title that is about 
modest improvements for NEPA, and I just wanted to give you the 
opportunity, if you had any--if you could change anything about 
NEPA, what would it be?
    Mr. Shelton. Well, it's interesting that NEPA--and 
(inaudible) talked about this--is a relatively short piece of 
legislation as it goes. It's only several pages long.
    And as I mentioned, it's really an umbrella--several of the 
witnesses have mentioned it--it's an umbrella. It essentially 
establishes a direction for this country so that we would have 
a consistent and comprehensive, you know, environmental policy.
    So I think that's essentially sound, and its provisions 
that would avoid any unnecessary impact are good.
    (Inaudible) impacts if we can avoid them. It also helps 
protect the public health and safety and gives alternative 
actions to choose from and public participation. These are all 
very sound aspects of the foundation of NEPA. As far as those 
myriad other mandates and laws which are tucked under this 
umbrella, I certainly can't say that I'm familiar with every 
last one.
    I think that the rest of my testimony is that we are 
opposed to weakening environmental protection. I don't think 
any specific (inaudible) has been put forth by this Task Force. 
I think your job here is to take testimony and listen. So until 
we really have anything specific to respond to, you know, it's 
hard to do. But I think that my point here is that the 
principles and the practices of NEPA are sound and, you know, 
its purpose is to protect our environment and our public health 
and I think that's what it should do.
    Miss McMorris. Good. Thank you.
    Mr. England, would you speak to the ripple effect of 
current NEPA reviews on cost of construction, if you would?
    Mr. England. Certainly.
    Miss McMorris. Make sure you pull the mike in.
    Mr. England. If the permitting process--we--projects are on 
a particular schedule. In order to close real estate, for 
instance, you get the permits. If it's not in a timely 
fashion--in order for you--the owners are not obligated to 
follow through with a real estate deal, and we lose that 
opportunity to develop those resources.
    If the permit costs or permit process results in delays, 
you end up with additional consulting costs. You end up with 
additional financial costs. You have laborers and equipment 
you're not working. That ripples through the entire process.
    If we can't provide construction aggregates to market, the 
same kinds of effects occur. It's becoming more and more 
difficult for construction companies, themselves, to--with big 
projects to (inaudible) both financial, labor, and other costs.
    Miss McMorris. Would you--would you just describe a little 
bit what happens when NEPA has to be reopened?
    Mr. England. My view of what happens when NEPA has to be 
reopened is that you end up with the additional delays that 
we're talking about. If we--if--the NEPA process, as I 
understand it, is a process that you can check and ensure that 
the myriad of regulations are being addressed; but once an 
agency has checked off that issue, they should feel comfortable 
in being able to move on to their (inaudible) document with the 
assurance that it's not going to go into litigation.
    If it's reopened for some minor item, oftentimes not 
necessarily directly related to the specific site condition, 
it--it results in substantial delays and loss of (inaudible.)
    Miss McMorris. Very good. Thank you.
    Mr. Gohmert. I couldn't help but be struck by--as we were 
talking about some of these, thinking about an issue that's 
gotten a lot of attention in the (inaudible) Resources 
Committee; and that's the energy bill. One of the most 
controversial issues is MTBEs, and when MTBEs--you'll have to 
check the history of when they were first brought up as a way 
to make gasoline burn more cleanly and efficiently, which it 
does. MTBEs make gas burn more efficiently and saves air. 
Congress demanded and passed laws requiring MTBEs to be put 
into gasoline.
    The gas companies--oil and gas companies were screaming, 
``Please don't make us do that. It's going to be more costly. 
It's going to cost us in the long run. We're not sure about the 
long-term effects. There's things we don't know about MTBEs. 
Please don't make us do that.''
    Congress didn't hear. They said, ``Put it in. It's going to 
make gasoline burn more cleanly. We need that to (inaudible). 
It was required. They put it in anyway. They didn't care what 
the companies thought.
    And now one of the biggest issues before Congress and one 
of the hang-ups in the energy bill is that some of the same 
people that said, ``These oil and gas companies are corrupt. 
Make them put the MTBEs in there.'' You know, ``They should be 
required to put MTBEs''--they're now saying, ``Can you believe 
these corrupt oil and gas companies? They're asking that they 
not have to pay every dime to clean up the environment that's 
been devastated by MTBEs being put in gasoline.''
    They didn't want to put it in there, and Congress required 
them to put it in. Now these same people that found out it can 
pollute drinking water are saying, ``Make those sorry companies 
clean up the water they polluted. They should have known those 
MTBEs"--well, I'll stop it there.
    Anyway, it's nice if we can come and figure out and--get 
all of the input on issues before they're forced through 
legislation, and so I would just encourage each of you--I 
appreciate your testimony and any insights you have on any part 
of the process that can be made better, can be streamlined, can 
be made more effective.
    Obviously, as Ms. Nichols said, we can do a better job when 
we get more input from people; so I don't--well, I'll tell you 
what, why don't we follow up with our--and we are good friends. 
Chairman Carrillo, I appreciate you coming, but with--you had 
mentioned the IOGCC study that had been done, a survey.
    Let me ask you to--you know, that apparently indicated that 
there were personal agendas by some team members who work on 
permits and issue the permits that contribute to permit delays. 
It also was found that NEPA activity involved in oil and gas 
permitting was more process oriented and did not readily 
accommodate useful, proven remediation techniques. Do you know 
of any specific incidents of remediation techniques that were 
not adequately accommodated?
    Mr. Carrillo. I have to apologize. I do not--I don't think 
I have an adequate answer for that particular question. The 
gist of the--of the 2005 IOGCC survey was that there are 
inherent issues that operators/producers routinely run into; 
but as to that very specific question, I do not have any 
(inaudible) of some of those proven remediation techniques that 
were not allowed to be used. So I apologize.
    Mr. Gohmert. OK. Well, I don't have any further questions. 
I do thank all of you. I know it's taken your Saturday morning. 
We got elected to do this kind of thing; so we brought it on 
ourselves. You-all didn't get elected to do this; so thank you 
very much for taking time to help us.
    Mr. England, do you----
    Mr. England. Yes. I apologize. I would like to follow up 
with the two additional points with regards to the (inaudible) 
Act. Specifically, when geology dictates where we can get 
construction aggregates and we are forced to seek other sites, 
two specific ripple--additional ripple effects occur. One is 
that the sites aren't (inaudible). You can't get quality 
aggregates everywhere; so if you cannot get a permit to a 
particular place, you lose that opportunity and/or--or you're 
forced to seek a permit farther away.
    The result being further delay for us on the (inaudible) 
process with regard to that. Thank you.
    Miss McMorris. Well, Mr. Davis, we don't want you to get 
away without a question. Do you want to do--just speak to your 
experience as it relates to how--you know, in the event of a 
windstorm or fire or insects or disease, how you, as a private 
tree farmer, can respond compared to the Forest Service?
    Mr. Davis. Thank goodness we weren't--we weren't under the 
regulation of NEPA. (Inaudible). We didn't have to follow--
follow the regulation. We were free to go and do what needed to 
be done immediately. We were able to--and actually, I think 
that I would like to see that, when those types of disasters 
happen, that the Forest Service has the opportunity to act and 
act immediately, not only to salvage, which was a success, but 
the reestablishment (inaudible).
    They've got--they've got some longleaf pines that's still 
in the grass stage that are trying to fight its way through 
underbrush to get sunlight. So hopefully--hopefully, some 
relief can be given there to the Park Service.
    What I would like to do is--I missed this. I want to get a 
Farm Bureau statement in. Our Farm Bureau policy supports the 
effort to streamline and expedite the National Environmental 
Policy Act requirements to allow for the sound harvesting of 
mature, burned, dying, downed, or dead timber. We believe the 
long-term health and viability of our natural resources can 
best be achieved through these principles.
    Without these changes, our national resources will continue 
to be wasted, opportunities for a healthy forest regrowth will 
be lost, and the best interests of local communities and 
families will be sacrificed through misguided policies.
    Miss McMorris. Amen. Thank you. I think we'll wrap it up. I 
want to thank everyone in the audience for being here today. 
What makes America great is the fact that citizens are involved 
directly in our government. Thank you for taking the time on a 
Saturday morning to be here. If you have brought written 
comments and want to leave them, there is a table in the back 
of the conference hall. We would welcome any comments you have 
for us.
    I want to thank the panelists for being here. Each of you 
did excellent. We may have other questions for you, and we will 
submit those to you in writing and ask that you respond in 
writing when you receive such questions.
    This hearing is a continuation of the process of listening 
to a range of people as to how they've been impacted by NEPA. 
And we heard from all of you today, impacts from three states. 
We shared a host of perspectives and recommendations. I think 
that the views provided today, as well as those provided to the 
Task Force via e-mail and fax have laid a foundation for 
developing recommendations on improving NEPA.
    I would like to thank Congressman Gohmert for welcoming me 
to East Texas, for hosting the Task Force meeting here today. 
It's great to be here.
    Is there anything you want to add in closing?
    Mr. Gohmert. Thank you. And we do appreciate you coming to 
East Texas. We do feel like it really is as close to the Garden 
of Eden as you can get, but--I hope by the time you leave, 
you'll understand that Washington is not my home, and it will 
never be my home.
    Again, thanks to the panel. Thank you all. And I did want 
to mention one other thing, though. I read an editorial in the 
Tyler paper today that indicates that because of some of the 
Federal laws more and more companies like Temple Inland--and 
I've discussed this with some of their officials, but we have 
laws that are almost pushing them into selling off some of 
their timberland to private owners who are seeing the short-
term benefit of cutting trees and not remediating and not 
planting more trees to replace the ones they've cut down.
    So it's an ongoing process of trying to make the laws help 
the country more and (inaudible) laws that encourage people to 
have long-term visions for continuing to provide trees, and we 
shouldn't be discouraging that, so...
    There is--anything I've ever written in my life, I've 
always found ways to edit it. Even after it has won awards or 
things like that, I go back and go, ``Oh, that can be said 
better.'' That's what we're trying to do with NEPA, and we 
appreciate the audience participation.
    I will tell you this, too: We'll try not to let you get 
away before we serve you some real barbecue. It's not like what 
you get around Washington, D.C.
    Miss McMorris. With that, we're adjourned. Thank you.
    [Whereupon, the Task Force was adjourned.]
    [NOTE: Information submitted for the record has been 
retained in the Committee's official files.]

                                 <all>

</pre></body></html>
